              Report No. DODIG-2012-004                             November 3, 2011




   Changes Are Needed to the Army Contract With
 Sikorsky to Use Existing DoD Inventory and Control
       Costs at the Corpus Christi Army Depot




                                                Special Warning
This report contains contractor information that may be company confidential or proprietary. Section 1905,
title 18, United States Code, and section 423, title 41, United States Code, provide specific penalties for the
unauthorized disclosure of company confidential or proprietary information. You must safeguard this report
in accordance with DoD Regulation 5200.1-R.
Additional Copies
To obtain additional copies of this report, contact the Secondary Reports Distribution
Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ACC-RSA                   Army Contracting Command – Redstone Arsenal
AMC                       Army Materiel Command
AMCOM                     Army Aviation and Missile Life Cycle Management Command
BRAC                      Base Realignment and Closure
CCAD                      Corpus Christi Army Depot
CIT                       Consumable Item Transfer
DLA                       Defense Logistics Agency
DOF                       Depot Overhaul Factor
EBS                       Enterprise Business System
GAO                       Government Accountability Office
IFS                       Industrial Finance System
LMP                       Logistics Modernization Program
NSN                       National Stock Number
PBL                       Performance-Based Logistics
SDS                       Standard Depot System
TELSS                     Technical, Engineering, and Logistical Services and Supplies




                             FOR OFFICIAL USE ONLY
Report No. DODIG-2012-004 (Project No. D2010-D000CH-0077.002)                November 3, 2011

               Changes Are Needed to the Army Contract With
               Sikorsky to Use Existing DoD Inventory and
               Control Costs at the Corpus Christi Army Depot
                                                        AMCOM officials did not use the most cost-
What We Did                                             effective source of supply for consumable items
We evaluated the Army Aviation and Missile              purchased on the contract because AMCOM had
Life Cycle Management Command (AMCOM)                   not developed an effective material management
material purchases from Sikorsky Aircraft               strategy. The Defense Logistics Agency (DLA)
Corporation (Sikorsky) supporting the Corpus            had sufficient inventory to satisfy annual
Christi Army Depot (CCAD) to determine                  contract requirements for 3,267 items, and the
whether the partnership agreement effectively           Sikorsky contract price for those items was
minimized the cost of direct materials to the           $7.6 million, or 85.1 percent, higher than the
depot. AMCOM entered into the partnership to            DLA price. In addition, from 2008 through
address parts availability problems and improve         2010, Sikorsky was allowed to make excessive
readiness. This report addresses excess DoD             profit of about $930,760 by procuring items
inventory, a metric for reducing material costs,        from DLA that it then sold to CCAD.
and splitting requirements.
                                                        Recommendations,
What We Found                                           Management Comments, and
AMCOM did not effectively use DoD inventory
before procuring the same items from Sikorsky
                                                        Our Response
because AMCOM did not develop adequate                  Among other recommendations, we recommend
procedures addressing inventory use. We                 that DoD develop an effective strategy to use
identified $47.5 million to $58.7 million of            existing inventory before procuring new items
excess inventory that AMCOM could use to                from Sikorsky and to effectively procure
satisfy CCAD contract requirements.                     consumable items. The Army Contracting
                                                        Command – Redstone Arsenal (ACC-RSA)
AMCOM, as directed by the Army Materiel                 needs to immediately remove the material cost
Command, added a material cost reduction                reduction clause from the contract and obtain a
clause into the contract, which was not effective       refund of $11.8 million. Also, ACC-RSA needs
in reducing CCAD repair costs. The clause was           to include a contract clause that requires
designed for Sikorsky and CCAD to share                 Sikorsky to obtain consumable items from DLA
savings associated with reduced material usage          as the first source of supply when cost-effective
for repair programs. However, AMCOM did                 and practical; pursue a refund of $930,760 for
not use reliable data, did not consider depot           excessive profits charged on purchases from
labor, and omitted repair programs that                 DLA; and modify contract clauses to prevent
experienced material cost increases in its              Sikorsky from making excessive profits.
calculation of material cost reduction.                 Overall, management comments were
Consequently, AMCOM made an unjustified                 responsive except for comments on the
incentive payment of $11.8 million to Sikorsky          recommendations to obtain refunds for the
for reducing material costs. Our calculations           unjustified incentive payment and excessive
showed that depot costs increased by                    profits. Therefore, we request additional
$29.3 million.                                          comments by December 5, 2011. Please see the
                                                        recommendations table on page iii.




                                                    i
Report No. DODIG-2012-004 (Project No. D2010-D000CH-0077.002)                       November 3, 2011

Excess Inventory
The Army is procuring parts from Sikorsky instead of using $47.5 million to $58.7 million of excess
DoD inventory to satisfy CCAD requirements. (Finding A, Page 8 of the report provide additional
details.)

               DoD Inventory Could Be Used to Meet CCAD Contract Requirements
                                          (millions)
                                              Contract Year                     Remaining
                                                                    Subtotal    for Future        Total
                                            2011        2012                   Requirement
                                  3 Years of Contingency Stock (113 items)
        CCAD Contract Requirement          $66.7      $68.7                                        $135.4
        Excess Inventory                     $24.6           $9.8      $34.5          $24.2         $58.7
                                  5 Years of Contingency Stock (87 items)
        CCAD Contract Requirement         $60.3       $62.0                                        $122.3
        Excess Inventory                     $22.2           $6.6      $28.8          $18.7         $47.5
        Excess inventory was calculated by removing 3 or 5 years of DoD demand outside CCAD requirements.




Example of Excess DoD Inventory Not Being Used
National Stock Number 1680-01-482-3952 is a guide assembly used on the Blackhawk helicopter. As
of May 2010, AMCOM had 4,047 in inventory valued at $5.9 million or $1,449.41 each at the DLA
Distribution Depot, Susquehanna, Pennsylvania. AMCOM officials stated annual demand outside of
CCAD is 53 and the CCAD/Sikorsky contract requirements were 54 in 2010 for total annual
requirements of 107. Consequently, based on total 2010 demand requirements, the Army has roughly
37.8 years of inventory for the guide assembly that should be used before procuring additional parts
from Sikorsky. In response to the audit, AMCOM reduced the 2011 CCAD/Sikorsky contract
requirement from 90 to 0.




                 Guide Assembly                                     Guide Assembly Inventory




                                                        ii
Report No. DODIG-2012-004 (Project No. D2010-D000CH-0077.002)    November 3, 2011

Recommendations Table

          Management                   Recommendations    No Additional Comments
                                      Requiring Comment            Required
Commander, Army Aviation and                              A.1, A.2
Missile Life Cycle Management
Command
Executive Director, Army             B.1, B.2, C.2        C.1, C.3
Contracting Command – Redstone
Arsenal
Director, Defense Logistics Agency                        A.1
Aviation

Please provide comments by December 5, 2011.




                                            iii
Table of Contents

Introduction                                                             1

      Objectives                                                         1
      Background                                                         1
             Corpus Christi Army Depot                                   1
             Army Aviation and Missile Life Cycle Management Command     1
             Defense Logistics Agency                                    2
             Sikorsky                                                    2
             CCAD/Sikorsky Contracts                                     3
             Nonstatistical Audit Sample of Material                     4
      Review of Internal Controls                                        4

Finding A. Excess DoD Inventory                                          5

      Excess DoD Inventory for Sample Items                               5
      Existing Inventory Could Satisfy CCAD Requirements                  7
             Inventory Reduction Plans                                    7
             Management Action Initiated                                  8
             Excess DLA Inventory for CCAD/Sikorsky Contract Items        9
      Procedures Needed to Use Existing DoD Inventory                    11
             Different Management Systems Do Not Provide Visibility
                of Total Assets                                          11
             Better Management of Inventory Is Needed                    12
      AMCOM Consumable Item Transfers                                    13
      Recurring Problem of Unused DoD Inventory                          14
      Recent Guidance to Address Excess DoD Inventory                    14
      Recommendations, Management Comments, and Our Response             15

Finding B. No Justification for Material Cost Reduction Clause Payment   18

      Guidance                                                           18
            Material Cost Reduction Clause                               18
            Federal Acquisition Regulation on Performance Incentives     19
      AMCOM Calculation of Material Cost Savings                         19
            Calculations Were Based on Unreliable Data                   20
            Depot Labor Costs Were Not Considered                        26
            Material Increases Were Also Not Considered                  27
      Changes Are Needed to Control Depot Costs                          29
      Recommendations, Management Comments, and Our Response             30



                          FOR OFFICIAL USE ONLY
Table of Contents (cont’d)
Finding C. Splitting Requirements for Consumable Items Was Not
             Cost-Effective                                             33

      CCAD/Sikorsky Contract Procurement Strategy                       33
             Purchases for CCAD Requirements                            33
             AMCOM and DLA Purchases for Other Customers                34
      DoD Needs an Effective Strategy for Procuring Material            35
             Economic Order Quantities Were Not Considered              35
             The DoD EMALL Is a Valuable Pricing Tool and Can
               Stimulate Competition Between DLA and Sikorsky           37
             Sikorsky Made Excessive Profits on Purchases From DLA      39
      Consolidation Goals Not Being Met                                 42
             Consolidation of Inventory Control Points                  42
             2005 BRAC Recommendations                                  42
             Additional Reviews Needed to Determine the Effectiveness
               of Consolidation                                         43
      Management Comments on the Finding and Our Response               43
      Recommendations, Management Comments, and Our Response            44

Appendices                                                              46

      A. Scope and Methodology                                          46
            Interviews and Documentation                                46
            Nonstatistical Sample Selection                             46
            Inventory Analysis                                          46
            Price Analysis                                              47
           Material Cost Reduction Analysis                             47
           Use of Computer-Processed Data                               47

      B. Prior Coverage                                                 48

Management Comments

      Department of the Army                                            49
      Defense Logistics Agency                                          66




                          FOR OFFICIAL USE ONLY
Introduction
Objectives
The overall objective of the audit was to evaluate material purchases made at Corpus
Christi Army Depot (CCAD) through the partnership agreement with Sikorsky Aircraft
Corporation (Sikorsky). Specifically, we determined whether the partnership agreement 1
with Sikorsky effectively minimized the cost of direct materials to the depot. See
Appendix A for a discussion of the scope and methodology. This report is one of two
reports examining the Army contract with Sikorsky to support CCAD; the other report
will address spare parts pricing problems.

We performed this audit pursuant to Public Law 110-417, “Duncan Hunter National
Defense Authorization Act for Fiscal Year 2009,” section 852, “Comprehensive Audit of
Spare Parts Purchases and Depot Overhaul and Maintenance of Equipment for
Operations in Iraq and Afghanistan,” October 14, 2008. Section 852 requires:

                  … thorough audits to identify potential waste, fraud, and abuse in the
                  performance of the following: (1) Department of Defense contracts,
                  subcontracts, and task and delivery orders for—(A) depot overhaul and
                  maintenance of equipment for the military in Iraq and Afghanistan; and
                  (B) spare parts for military equipment used in Iraq and Afghanistan.

Background
Corpus Christi Army Depot
CCAD, located in Corpus Christi, Texas, is a maintenance depot in the Army Working
Capital Fund Industrial Operations activity group whose mission is to overhaul, repair,
modify, retrofit, test, and modernize helicopters, engines, and components for all services
and foreign military customers. CCAD also is actively engaged in resetting equipment
returning from operations in Iraq and Afghanistan. CCAD falls under the operational
control of the Army Aviation and Missile Life Cycle Management Command
(AMCOM).

Army Aviation and Missile Life Cycle Management Command
AMCOM is headquartered at Redstone Arsenal, Alabama, and is a major subordinate
command of the Army Materiel Command (AMC). AMCOM was established as a
readiness command to develop, acquire, field, and sustain aviation and missile weapons
systems. AMCOM provides life-cycle management of Army aviation and missile
systems from research and development to procurement and production; from spare parts
availability to flight safety; and from maintenance and overhaul to eventual retirement.



1
 The partnership agreement is a contract for technical, engineering, and logistics services support and for
material parts support.

                                   FOR OFFICIAL USE ONLY
                                             1
In addition, AMCOM strives to ensure that the Army's aviation and missile systems are
technologically superior, affordable, and always ready for use.

Defense Logistics Agency
The Defense Logistics Agency (DLA), headquartered at Fort Belvoir, Virginia, provides
logistics, acquisition, and technical services to the Army, Navy, Air Force, Marine Corps,
other Federal agencies, and joint and allied forces. DLA reportedly supplies 84 percent
of the military’s spare parts. Further, in addition to regional commands, DLA is
organized into primary level field activities. Among them are DLA Land and Maritime,
DLA Troop Support, and DLA Aviation.

Sikorsky
Sikorsky Aircraft Corporation, according to its Web site, is a “world leader in the design,
manufacture and service of military and commercial helicopters; fixed-wing aircraft;
spare parts and maintenance, repair and overhaul services for helicopters and fixed-wing
aircraft; and civil helicopter operations.” One of the helicopters that Sikorsky
manufactures is the UH-60 Blackhawk helicopter. The Blackhawk, a utility tactical
transport helicopter, entered Army service in 1979. Its mission is to provide air assault,
general support, aeromedical evacuation, command and control, and special operations
support to combat and stability and support operations. Figure 1 shows the Blackhawk
helicopter.

                        Figure 1. UH-60 Blackhawk Helicopter




                                   Source: www.army.mil




                             FOR OFFICIAL USE ONLY
                                       2
CCAD/Sikorsky Contracts
In December 2002, the AMCOM Contracting Center 2 issued a delivery order contract to
Sikorsky, which bundled the technical, engineering, and logistical services and supplies
(TELSS) support provided to CCAD for the repair, overhaul or recapitalization, and
upgrade of the H-60 utility series helicopter. Under TELSS, Sikorsky acts as AMCOM’s
procurement manager and is responsible for obtaining and providing material needed by
CCAD. AMCOM officials view TELSS as a success when repair turn around time of
airframes and depot level repairable components is reduced and the overall production
quality is improved. The AMCOM Contracting Center has awarded four TELSS
contracts to Sikorsky.

Contract DAAH23-03-D-0043
The AMCOM Contracting Center awarded the initial CCAD/Sikorsky contract on
December 2, 2002. The contract was a 5-year fixed-price, indefinite-delivery, indefinite-
quantity requirements type contract for integrated services and supplies to support the
overhaul and repair of H-60 components at CCAD. The total contract value was
$415 million, or an average of about $80 million a year.

Bridge Contracts (W58RGZ-08-C-0037 and W58RGZ-08-C-0172)
The AMCOM Contracting Center awarded the initial bridge contract, W58RGZ-08-C-
0037, on November 29, 2007, for the period December 1, 2007, through May 30, 2008.
The total contract value was $76 million. The AMCOM Contracting Center awarded the
second bridge contract, W58RGZ-08-C-0172, on June 2, 2008, for the period
June 2, 2008, through November 30, 2008. The total contract value was about
$101 million. The value of the two contracts together was about $177 million.

Contract W58RGZ-09-D-0029
The AMCOM Contracting Center awarded the current contract on November 24, 2008.
This contract is a firm-fixed-price, indefinite-delivery, indefinite-quantity contract with
options available to extend performance through November 30, 2012. The TELSS
contract has an annual cost of about $224 million or $895 million for the 4-year
performance period and includes over 7,000 items.




2
 AMCOM Contracting Center or the Army Contracting Command – Redstone Arsenal is one of seven
contracting centers under the Army Contracting Command.

                               FOR OFFICIAL USE ONLY
                                         3
Nonstatistical Audit Sample of Material
We selected 332 national stock numbers (NSNs) to review, which equaled about
80 percent of the total dollar value of items 3 Sikorsky was required to furnish for the
Blackhawk weapon system from 2009 through 2012. As shown in Table 1, our sample
included 93 Army-managed parts (Army items); 184 DLA-managed consumable items
(DLA consumables); and 55 consumable items, of which AMCOM transferred
management to DLA (consumable item transfers). For more detailed information on the
sample selection, see Appendix A.

                         Table 1. Contract Dollar Value of Sample Items
                                                              Contract Dollar Value (millions)
                                       No. of
                                       Items         2009        2010       2011        2012           Total
     Army items                          93          $40.8       $41.7      $51.8        $53.1         $187.4
     DLA consumables                    184           36.3         37.2       48.0        49.8          171.3
     Consumable item transfers           55           30.5         31.1       37.5        38.5         137.5
       Total                            332         $107.5*     $110.0     $137.2*      $141.4     $496.1*
     *Slight rounding inconsistencies exist because auditor calculation included decimal places.



Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified an internal
control weakness for AMCOM and DLA. Specifically, procedures to fully use existing
DoD inventory before procuring the same items from commercial sources have not been
developed. For specific results of this weakness, see Finding A of this report. We will
provide a copy of the report to the senior official responsible for internal controls for
AMCOM and DLA.




3
    The total dollar value of items amounted to $619.9 million based on planned contract quantities.

                                     FOR OFFICIAL USE ONLY
                                               4
Finding A. Excess DoD Inventory
AMCOM officials did not effectively use $205.9 million of DoD inventory before
procuring the same items directly from Sikorsky under the CCAD/Sikorsky contract to
support the Blackhawk weapon system. DoD inventory was not effectively used for the
following reasons:

    •   AMCOM officials did not develop procedures to fully use existing DoD inventory
        before procuring the same items from Sikorsky. The Army, DLA, and Sikorsky4
        all used different systems to manage inventory and requirements and no system
        provides total asset visibility or requirements information. AMCOM officials
        have a responsibility to match and reduce CCAD/Sikorsky contract requirements
        when existing DoD inventory is available.

    •   AMCOM officials transferred inventory to DLA Aviation as part of a 2005 Base
        Realignment and Closure (BRAC) supply and storage recommendation, but did
        not transfer requirements for the items that are now being met by Sikorsky on the
        CCAD/Sikorsky contract.

As a result, we identified $47.5 million (87 items) to $58.7 million5 (113 items) of excess
DoD inventory that could be used to satisfy CCAD/Sikorsky contract requirements for
the Blackhawk helicopter ($28.8 million to $34.5 million over the next 2 contract years
with an additional $18.7 million to $24.2 million that could be used to satisfy future
contract requirements). Using the DoD EMALL, 6 we identified an additional
$46.8 million (valued at the DLA standard unit price), or $230.7 million (valued at the
contract price) of DLA inventory, for 1,676 items that AMCOM could have used to meet
CCAD requirements rather than procuring these items from Sikorsky.

Excess DoD Inventory for Sample Items
According to the material attachments to the CCAD/Sikorsky contract, relating to our
audit sample of 332 items, AMCOM officials plan to buy $276.7 million of inventory
from Sikorsky over the remaining 2 years of the contract. However, based on
January 2011 Federal Logistics Information System prices, we calculated that DoD has
$205.9 million of the same items in inventory, which must be used.



4
  Derco Aerospace, a wholly owned subsidiary of Sikorsky, performs procurement and warehousing
functions for the CCAD/Sikorsky contract.
5
  Our calculation is based on the 2010 through 2012 unit prices in the CCAD/Sikorsky contract,
modification P00034, dated July 13, 2010. The range of excess inventory depends on whether DoD retains
a 3-year or 5-year contingency stock for requirements outside the CCAD/Sikorsky contract.
6
  The DoD EMALL is a full-service eCommerce site, which strives to be the single entry point for
purchasers to find and acquire off-the-shelf finished goods and services from the commercial market place
and Government sources. The DoD EMALL offers cross-store shopping to compare prices and other best
value factors. The DoD EMALL suppliers are Government-approved sources and comply with Federal
Acquisition Regulation requirements.

                                  FOR OFFICIAL USE ONLY
                                            5
DoD warehouses contained high levels of inventory for many of the items in our audit
sample, but there was little to no demand for over a third of these items outside the
CCAD/Sikorsky contract. Figure 2 shows a breakout of our audit sample by Army items,
consumable item transfers (CITs), and DLA consumables, and the years of inventory in
DoD warehouses. We used the 2009 demand levels to calculate the years of inventory, or
the time period before the existing inventory will be consumed. The cut-away section of
each pie chart depicts 0 to 5 years of demand, or the amount of inventory that we think is
reasonable to retain. The “Total” pie chart shows that DoD had greater than 5 years of
inventory for 38 percent of the items in our audit sample (excluding CCAD/Sikorsky
contract requirements).

         Figure 2. Years of Existing Inventory, Excluding CCAD/Sikorsky
                             Contract Requirements
                   Army Items                                           CITs
                     (Years)                                           (Years)
                                                                No
                                                              Demand

                                                        >15

       No                                 0-5
     Demand
                                                      >5-15


                                                                                 0-5


                       >15   >5- 15


               DLA Consumables                                          Total
                   (Years)                                             (Years)
                No
              Demand
                                                        No
                                                      Demand
         >15

                                                      >15
       >5-15
                                         0-5                                      0-5

                                                        >5-15




A specific example of a part with excess inventory is a guide assembly (Sample 295 -
NSN 1680-01-482-3952) used on the Blackhawk helicopter. As of May 2010, AMCOM
had 4,047 in inventory, valued at $5.9 million or $1,449.41 each. AMCOM officials
stated the annual demand outside of CCAD is 53. In 2010, the Army agreed to procure
54 of this part from Sikorsky. If the Army retained 5 years of contingency stock and used
existing inventory to meet contract demand of 120 for the remaining 2 years



                                      FOR OFFICIAL USE ONLY
                                                6
(60 annually7) of the CCAD/Sikorsky contract, the Army could avoid costs of $184,504.
The Army would still own remaining inventory of 3,662 parts (32 years), valued at
$5.7 million, which could be used to satisfy future requirements. Figure 3 shows guide
assembly inventory at the DLA Distribution Depot Susquehanna, Pennsylvania.
                             Figure 3. Sample 295 - Guide Assembly




                                                                 Guide assembly inventory at DLA
          An individual guide assembly                          Distribution Depot, Susquehanna, PA

Existing Inventory Could Satisfy CCAD Requirements
The existing DoD inventory could be used to satisfy requirements on the CCAD/Sikorsky
contract. Specifically, for the sample items, we identified $28.8 million to $34.5 million
                                                     of CCAD/Sikorsky contract
          DoD has $47.5 million to                   requirements scheduled to be procured
    $58.7 million in existing inventory              over the next 2 years that could be
                                                     satisfied with existing DoD inventory.
   that could be used to satisfy current             We also identified an additional
      and future CCAD requirements.                  $18.7 million to $24.2 million that
                                                     could be used to satisfy future CCAD
requirements. Consequently, DoD has $47.5 million to $58.7 million in existing
inventory that could be used to satisfy current and future CCAD requirements.

Inventory Reduction Plans
We developed two reduction plans that provided for retaining either 3 years or 5 years of
inventory as contingency stock. Both plans used the remaining inventory to meet the
planned requirements on the CCAD/Sikorsky contract. Our reduction calculation was
based on demand and inventory data provided by AMCOM on May 11, 2010, and
2009 annual demand and inventory data provided by DLA on March 30, 2010.

Table 2 shows that DoD has $58.7 million (113 items) of excess inventory (if 3 years of
contingency stock is retained) that could be used to meet CCAD requirements:
$34.5 million over the next 2 years. For example, the 2011 contract requirement is


7
    During the audit, AMCOM revised 2011 and 2012 contract requirements to 90 annually.

                                   FOR OFFICIAL USE ONLY
                                             7
$66.7 million; however, DoD has $24.6 million of excess inventory that could be used to
satisfy part of this requirement. If the Army used the excess inventory, they would only
have to fund the contract for $42.1 million in 2011. The excess inventory predominantly
relates to items or NSNs that are only used in the depot ($45.0 million of the
$58.7 million, or 76.6 percent).

       Table 2. DoD Inventory Could Be Used to Meet Contract Requirements
                         (3 Years of Contingency Stock)
                                    (millions)
                                          Contract Year                        Remaining for
             113 Items                                          Subtotal          Future          Total
                                         2011        2012                      Requirement
Contract value                           $66.7        $68.7                                       $135.4
                                                                           1                                1
Army items (37)                          13.0          6.0         $19.0                $10.9       29.9
CITs1 (26)                                 5.9          2.0          7.82                11.3       19.1    1

                                                                           2                                1
DLA consumables (50)                       5.8          1.9          7.6                  2.0        9.6

Excess DoD inventory (113)                 $24.62        $9.82       $34.52              $24.2    $ 58.72
1
  Consumable item transfers from the Army to DLA.
2
  Slight rounding inconsistencies exist because auditor calculations included decimal places.


Table 3 shows that DoD has $47.5 million (87 items) of excess inventory (after 5 years of
contingency stock is retained) that could be used to meet CCAD requirements:
$28.8 million over the next 2 years. The excess inventory predominantly relates to items
or NSNs that are used only in the depot ($42.0 million of the $47.5 million, or
88.4 percent).

       Table 3. DoD Inventory Could Be Used to Meet Contract Requirements
                         (5 Years of Contingency Stock)
                                    (millions)
                                          Contract Year                        Remaining for
             87 Items                                           Subtotal          Future           Total
                                          2011        2012                     Requirement
Contract value                            $60.3       $62.0                                        $122.3
Army items (33)                            12.41        3.6        $16.11                 $9.8       25.9
CITs2 (18)                                  4.91         1.4         6.31                  7.2       13.5
DLA consumables (36)                        4.8          1.6         6.4                   1.7         8.1

Excess DoD inventory (87)                   $22.21        $6.6        $28.8               $18.7     $47.5
1
  Slight rounding inconsistencies exist because auditor calculations included decimal places.
2
  Consumable item transfers from the Army to DLA.


Management Action Initiated
During the audit, we briefed AMCOM officials on excess inventory that could be used to
meet contract requirements. AMCOM officials agreed with the audit team’s
methodology for calculating potential inventory reductions. However, AMCOM officials
stated that when AMCOM calculates an inventory reduction, they need to take into
                                   FOR OFFICIAL USE ONLY
                                             8
account that Sikorsky has long-term contracts and when quantities are decreased under
the contract, additional costs need to be considered. AMCOM officials stated that they
had engaged Sikorsky on the need to reduce DoD inventory and were pursuing an
agreement before the next option year that begins in November 2010. On December 1,
2010, the AMCOM Contracting Center issued contract modification P00049, which
applied Army-owned inventory to reduce contract requirements.

Excess DLA Inventory for CCAD/Sikorsky Contract Items
Using the DoD EMALL, we were able to obtain stock on hand, consumption data, and
the DLA standard unit price for 5,405 of 7,093 items 8 on the CCAD/Sikorsky contract.
We removed the inventory and annual requirements for the sample items already
discussed, resulting in a total of 6,765 items. As of September 2010, DLA had existing
inventory valued at $131.8 million that could be used to meet contract requirements.
This same inventory would cost $419.8 million if procured under the CCAD/Sikorsky
contract (Table 4). For parts with either no demand or greater than 5 years of inventory,
DLA had inventory of $230.7 million valued at the contract price and only $19.7 million
(DLA and CCAD) of annual requirements. CCAD annual requirements of $7.1 million
account for more than a third of the total requirements.

                   Table 4. DLA Excess Inventory That Should Be Used
                              to Meet CCAD Requirements
                                        (millions)
                                                  DLA On-Hand                Annual Requirements
                                                 Inventory Value               at Contract Price
                                             DLA
                                                              Contract
                               No. of      Standard                            DLA          CCAD
                                                               Price1
      Years of Inventory       Items       Unit Price
     No demand                    247             $1.7               $3.7        $-              $1.2
     > 15                         589              16.3             151.2         3.3             2.6
     > 5 to 15                    840              28.8              75.8         9.2             3.3
                                                                                        2
      Subtotal                  1,676             $46.8            $230.7       $12.6            $7.1
      <5                        3,565              85.0             189.1       166.9            16.8
     No inventory or not in
                                1,524              N/A               N/A          N/A            N/A
     DoD EMALL
        Total                    6,765            $131.8            $419.8       $179.5          $23.9
     1
       The 2010 contract unit price was used to calculate contract value. In addition, 134 items were
     valued at 0 because the unit of issue was not comparable.
     2
       Slight rounding inconsistencies exist because auditor calculations included decimal places.


A large part of the difference between the DLA ($131.8 million) and contract
($419.8 million) inventory values related to low-dollar parts being procured more
economically by DLA. The largest difference was in the category of 15 years or more of


8
 The 7,093 items do not include 4 items identified in our sample because they were removed in contract
modification P00034, which we used as the basis for our calculations.

                                  FOR OFFICIAL USE ONLY
                                            9
    inventory ($16.3 million vs. $151.2 million) that related primarily to parts that DLA
    procured in packages of a hundred, while the CCAD/Sikorsky contract procured the same
    parts in an uneconomical order quantity (each). See Table 5 for examples of the pricing
    difference for four parts, which account for an $80.9 million difference in inventory
    values. However, CCAD was not procuring large quantities low-dollar parts from
    Sikorsky as the 2010 annual contract requirements for the parts ranged from only 2 to
    628. See Finding C for more discussion on the uneconomical quantities being procured
    under the CCAD/Sikorsky contract.

                          Table 5. Low-Dollar Parts Affect Calculation
                           of DLA Inventory Value at Contract Price
                         DLA              DLA Price             Contract Price2               Difference
         NSN           On-Hand
     (Description)    Inventory1     Unit1       Total        Unit         Total         Amount        Percent
    5305000545647
    (machine screw)   11,697,500     $0.03     $ 329,870     $ 2.15    $25,149,625     $24,819,756         7,524
    5306002089029
        (bolt)         3,162,600      0.30        944,036     10.65     33,681,690      32,737,654         3,468
    5340002118188
        (cap)         10,425,400      0.02        225,189      1.41     14,699,814      14,474,625         6,428
    5940001434771
       (terminal)      7,497,900      0.05        363,648      1.23       9,222,417       8,858,769        2,436
   Total                                         $1,862,742            $82,753,546 $80,890,804             4,243
1
  To show an equal comparison, we converted the DLA on-hand inventory quantity and unit price from a unit of
issue of a “hundred” to a unit of issue of “each.”
2
  The 2010 annual contract requirements for the parts ranged from only 2 to 628 and are not representative of
the DLA on-hand inventory quantities.


    DLA has excess inventory that should be used to meet contract requirements. One
    example of excessive inventory is a retainer (NSN 3110-01-243-6588) used on the
    Blackhawk helicopter. As of September 2010, DoD EMALL showed 614 of the retainer
    in inventory, valued at $591.50 each, with an annual demand of 2. In 2010, the Army
    agreed to procure 18 from Sikorsky, valued at $2,613.23 each, 341.8 percent higher than
    the DLA price. We calculated, based on 2010 unit prices, that if the Army procured this
    part from DLA to meet contract demand of 54 for contract years 2010 through 2012
    (18 annually), the Army could avoid costs of $109,173 and DLA would still have
    560 parts (28 years) in inventory that could be used to meet future requirements.
    Figure 4 shows a retainer.
                                             Figure 4. Retainer




                                     FOR OFFICIAL USE ONLY
                                               10
It is a waste of DoD funds to procure the same items from Sikorsky at much higher prices
when DLA has sufficient existing inventory to meet CCAD requirements.

Procedures Needed to Use Existing DoD Inventory
AMCOM officials did not develop procedures to fully use existing DoD inventory before
procuring the same items from Sikorsky at higher prices. The Army, DLA, and Sikorsky
all used different systems to manage inventory and requirements, and no system provided
total asset visibility or requirements information. AMCOM officials have a responsibility
to match and reduce CCAD/Sikorsky contract requirements when existing DoD inventory
is available. AMCOM also had not effectively coordinated support requirements with
DLA to reduce excess inventory. To effectively use existing DoD inventory, an ongoing
effort and better communication between the Services and DLA is required.

Different Management Systems Do Not Provide Visibility of
Total Assets
The Army used the Logistics Modernization Program (LMP), and DLA used the
Enterprise Business System (EBS) to manage their inventories. Sikorsky’s warehouse
manager, Derco Aerospace, used the Industrial Finance System (IFS) to manage its
inventories at CCAD. However, the different systems did not provide total asset
visibility of inventory managed in each system. In addition, no one took responsibility to
periodically match available DoD inventory with requirements. The responsibility for
this effort lies with AMCOM because they have visibility over what items are covered
under its contract.

Logistics Modernization Program System
In February 1998, AMC began to replace its existing material management systems with
LMP. Before LMP, AMC relied on a 30-year-old system to manage its logistics
operations and supply critical equipment and repair items. The lack of a single, unified
supply system across the Army fostered an environment in which numerous
organizations developed independent material management systems. As a result, the
Army faced serious challenges in managing its supply chain and distribution
infrastructure. As of February 2007, LMP managed $4.5 billion worth of inventory,
processed transactions with 50,000 vendors, and integrated with more than 80 DoD
systems. When fully implemented, LMP is expected to include approximately
21,000 users at 104 locations across the globe, and it will be used to manage more than
$40 billion worth of goods and services, such as inventory managed at the national level
and repairs at depot facilities. The Army implemented LMP at AMCOM and CCAD in
May 2009.

While the Army has visibility of inventory, requirements, and due-in quantities of Army
items, LMP does not provide visibility of total inventory or requirements for DLA
consumables or consumable items that the Army transferred to DLA. However, the DoD
EMALL system can provide visibility for DLA consumables, as discussed in the
following paragraph.



                             FOR OFFICIAL USE ONLY
                                       11
Enterprise Business System
EBS is DLA’s primary information technology to support the evolving logistics needs of
DoD. EBS provides functionality in five core process areas: (1) order fulfillment –
customer service and requisition processing; (2) planning – demand and supply planning;
(3) procurement – sourcing and supplier management; (4) tech quality – product data and
                                                  quality management; and (5) finance –
                                                  financial processing and management.
   The DoD EMALL, which was fully                 EBS only included visibility of DLA
  integrated with EBS, provides easy              inventory levels and demands but had no
     access to stock-on-hand levels,              information on Army items. The DoD
     monthly consumption data, and                EMALL, which was fully integrated with
     DLA standard unit prices for all             EBS, provides easy access to stock-on-
                                                  hand levels, monthly consumption data,
             DLA consumables.                     and the DLA standard unit price for all
                                                  DLA consumables. See Table 4 (page 9)
for information obtained from the DoD EMALL. The DLA Aviation performance-based
logistics program manager stated that all DoD Service personnel can access DoD
EMALL via a common access card. Contractors, such as Sikorsky, would need Public
Key Infrastructure Certificates if they did not have common access cards to access
DoD EMALL.

Industrial Finance System
The IFS inventory management system was used by Derco Aerospace at CCAD. IFS is a
single, integrated product that supports the management of four core processes: (1)
service and asset, (2) manufacturing, (3) projects, and (4) supply chain. Derco Aerospace
used IFS                              to forecast contract requirements. Although IFS
provided visibility of CCAD inventory, IFS did not have visibility into LMP or EBS
inventory levels that could be used to meet CCAD requirements.

Better Management of DoD Inventory Is Needed
While both the Army and DLA had their own systems to track requirements, stock on
hand, and stock due in, these systems were not connected to determine whether there was
inventory on-hand to meet the requirements before procuring new items, and no one was
assigned responsibility to match CCAD requirements with DLA inventory identified in
DoD EMALL. Having multiple systems to track inventory led to significant levels of
unused inventory. Therefore, continuous communication about requirements and
inventory levels must occur to ensure that existing inventory is used before purchasing
the same items from private contractors.

The Commander, AMCOM, and the Director, DLA Aviation, need to establish a team
with representatives from CCAD and Sikorsky to develop a plan to use excess DoD
inventory to meet CCAD requirements. Additionally, an annual provisioning conference
should be held to revisit the excess inventory situation until it is resolved.
[Recommendation A.1 – Internal Control]



                             FOR OFFICIAL USE ONLY
                                       12
If AMCOM officials want Sikorsky to manage items to meet CCAD requirements, they
need to assign responsibility and make Sikorsky accountable through contract terms and
metrics for reducing existing DoD inventory. [Recommendation A.2.a]

AMCOM Consumable Item Transfers
AMCOM officials transferred inventory to DLA Aviation as part of a 2005 BRAC supply
and storage recommendation, 9 but did not transfer requirement for the items that are now
being met by Sikorsky on the CCAD/Sikorsky contract. Specifically, AMCOM officials
transferred the management of 54 consumable items 10 in our sample with an inventory
value of $67.5 million, 11 to DLA. We determined that almost half (26 items, based on
3-year contingency stock) of the 54 consumable items had excess inventory. We
calculated that $13.5 million to $19.1 million of excess DoD inventory could be used to
satisfy contract requirements for the Blackhawk helicopter.

For example, one of the consumable items that AMCOM officials transferred to DLA on
May 2010 was a rotary wing fold set (Sample 37-NSN 1560-01-082-9202) used on the
Blackhawk helicopter. As of April 2011, DLA had 285 in inventory at $9,598.93 each, a
total value of $2.7 million. Only 23 sets were requisitioned from DLA in 2011, and these
were requisitioned primarily by CCAD. AMCOM personnel stated that this item had an
annual demand outside of CCAD of 34 sets. We calculated that AMCOM officials plan
to spend an additional $1.5 million, or $14,990.93 each, to procure 97 more of this part
from Sikorsky during the 2-year remaining performance of the CCAD/Sikorsky contract
when DLA would still have 188 of these in inventory.

According to the business case analysis for BRAC CIT, consumable items that were part
of a contractor logistics support contract, such as the CCAD/Sikorsky contract, would
continue to be managed by the contractor and within the Army system. Separating the
consumable items out from the contractor logistics support contract and transferring them
to DLA for management would undermine the outsourcing efforts and result in
ineffectiveness, as well as readiness issues.

The Commander, AMCOM, needs to require that AMCOM Integrated Materiel
Management Center not transfer items to DLA when future requirements for those items
will be supported by commercial sources. [Recommendation A.2.b]




9
  2005 BRAC supply and storage recommendation 176 relates to the procurement and management of
aviation depot-level repairables and consumable items, realigning functions from AMCOM to DLA.
10
   One of the consumable items scheduled to transfer was retained by AMCOM.
11
   Inventory value was calculated using the 2011 contract price and on-hand inventory balance as of
April 2011.

                                  FOR OFFICIAL USE ONLY
                                            13
Recurring Problem of Unused DoD Inventory
This is not the first time we have identified unused DoD inventory relating to contractor
logistics support or performance-based logistics (PBL) contracts. During our review of
the Air Force Secondary Power Logistics Solution contract, 12 we identified about
$70 million of unused DoD inventory because the Air Force was buying the same items
from a private contractor through a PBL arrangement. Additionally, DoD IG Report No.
D-2011-061, “Excess Inventory and Contracting Pricing Problems Jeopardize the Army
Contract With Boeing to Support the Corpus Christi Army Depot,” May 3, 2011,
identified that the Army could potentially avoid costs of $242.8 million to $277.8 million
by using existing inventory to meet CCAD requirements for the Apache and Chinook
weapon systems.

DoD needs to implement overall policies and procedures requiring reviews of inventory
levels and the use of existing DoD inventory before procuring the same items from a
private contractor under a contractor logistics support contract or PBL arrangement or
contracts. Otherwise, hundreds of millions of dollars will be wasted as the inventory sits
in DLA warehouses and DoD pays private contractors to provide the same items.

Recent Guidance to Address Excess DoD Inventory
In response to our earlier reports, both the Army and DoD have taken action to address
the utilization of excess inventory. On August 11, 2010, AMC issued policy
memorandum, “Order of Preference for Utilizing Repair Parts from Various Source of
Supply (SOS) Inventories in Fulfilling Depot Level Maintenance Oriented Performance
Based Logistics (PBL) Agreements and Public-Private Partnerships.” AMC issued the
policy to ensure its Life Cycle Management Commands establish requirements for
contractors to “. . . first use Government inventories to meet Depot-Level Maintenance
oriented performance-based logistics agreements and public-private partnerships before
acquiring new parts from commercial sources of supply.” The policy requires Life Cycle
Management Commands to deplete AMC inventories first and then use DLA inventory
for parts that DLA is the primary source of supply. Maintenance support contactors can
purchase parts from commercial sources only after all Government inventory is depleted.

A December 20, 2010, memorandum, “Maximum Utilization of Government-Owned
Inventory in Performance-Based Logistics Arrangements,” from the Principal Deputy
Under Secretary of Defense for Logistics and Materiel Readiness, established that a
standard practice on all PBL arrangements and partnering agreements should be the use
of government inventory. The memorandum also required existing arrangements to be
reviewed to ensure maximum use of government inventory and stated that policy will be
strengthened to emphasize the use of government inventory before procuring contractor-
owned inventory. Specifically, the memorandum stated:



12
 DoD IG Report No. D-2010-063, “Analysis of Air Force Secondary Power Logistics Solution Contract,”
May 21, 2010.

                                FOR OFFICIAL USE ONLY
                                          14
               Recent Department of Defense (DoD) Inspector General reports have
               highlighted the need to review inventories and use government-owned
               repair parts before procuring the same parts from private contractors
               through performance-based logistics (PBL) arrangements or contractor
               logistics support. PBL arrangements are an important method of
               support for weapon systems and may employ either government-owned
               or contractor-owned repair parts. When executing commercial product
               support strategies, particularly in today’s environment of affordability
               and efficiency, use of on-hand and due-in government inventory
               should be a standard practice on all PBL arrangements and
               partnering agreements. When PBL arrangements utilize commercial
               sources, stocking objectives should be adjusted accordingly. DoD
               4140.1-R (Volumes 2 and 3), “DoD Supply Chain Materiel
               Management Regulations” provides further guidance on adjusting
               inventory levels and forecasting to meet changes in demand.

               While DoD Instruction (DoDI) 5000.02, “Operation of the Defense
               Acquisition System,” DoDI, 4151.21, “Public-Private Partnerships for
               Depot-Level Maintenance,” and DoD 4140.1-R require full costs and
               benefits be considered in developing support arrangements, policy is
               being strengthened to emphasize the utilization of government-
               owned inventory before procuring contractor-owned inventory. In
               the interim, existing performance-based arrangements should be
               reviewed to ensure maximum use of on-hand and due-in
               government owned inventory to support good business practices.
               [emphasis added]

We consider the new guidance to be a step in the right direction. However, the Services
and DLA should make this a continual effort and establish better communication to fully
address existing DoD inventory.

Recommendations, Management Comments, and Our Response
A.1. We recommend that the Commander, Army Aviation and Missile Life Cycle
Command, and Director, Defense Logistics Agency Aviation, establish a team with
representatives from Corpus Christi Army Depot and Sikorsky to develop an
acceptable plan to use existing inventory to meet current and future Corpus Christi
Army Depot requirements. Additionally, an annual provisioning conference should
be held to revisit the excess inventory situation until it is resolved.

Department of the Army Comments
The Chief of Staff, AMCOM, partially agreed. The Chief of Staff stated that AMCOM
Integrated Materiel Management Center performed a detailed review of available
inventory and identified $24.7 million in excess AMCOM inventory that could be used to
satisfy CCAD requirements. He stated that currently, a memorandum of agreement
among AMCOM, DLA, CCAD, and Sikorsky is in process to ensure that Government
inventory is used as a first priority and that the contract will be modified to reflect usage
of any applicable Government-furnished material. He also stated that DLA excess
inventory will be used in accordance with recent guidance and that AMCOM will use
excess inventories before procuring additional material under the CCAD/Sikorsky
contract as appropriate.

                                FOR OFFICIAL USE ONLY
                                          15
In addition, he stated that the IG calculation in Table 5 appears to indicate that the Army
would pay $80.9 million in excess of DLA prices for the items identified. The contract
quantities purchased through August 2011 are very small with an extended value of
$22,990, while DLA prices would amount to $4,562. Therefore, the $80.9 million
calculation is not a correct indicator of what we have paid.

Defense Logistics Agency Comments
The Commander, DLA Aviation, agreed. The Commander stated that DLA will work
with AMCOM personnel to use existing inventory to meet current and future contract
requirements. He stated that DLA and AMCOM assembled a team, which began to meet
in FY 2011. He also stated that DLA recognizes its responsibility of monitoring
inventory and of facilitating communication among AMCOM, CCAD, and Sikorsky
regarding availability of material, but AMCOM is responsible for determining what it
procures from DLA.

Our Response
Comments from the Chief of Staff, AMCOM, and the Commander, DLA Aviation, were
responsive. We recognize that AMCOM and DLA are working to meet the intent of the
recommendation by taking action to address excess inventory. However, AMCOM’s
response only addressed AMCOM inventory and did not fully address DLA inventory.
We will provide additional followup to ensure the DLA inventory is fully utilized.

The intent of Table 5 was merely to put in perspective the data in Table 4 valuing DLA
inventory at the contract price. We recognize that AMCOM only procured small
quantities at the significantly higher contract prices.

A.2. We recommend that the Commander, Army Aviation and Missile Life Cycle
Management Command:

       a. Determine whether Sikorsky should manage the reduction of existing DoD
inventory in meeting Corpus Christi Army Depot requirements. If so, assign
responsibility and make Sikorsky accountable through contract terms and metrics.

Department of the Army Comments
The Chief of Staff, AMCOM, partially agreed. The Chief of Staff stated that Sikorsky
will not manage the reduction of excess inventory, but AMCOM will require Sikorsky to
meet existing contract metrics while working within a framework of reducing existing
excess inventory.

Our Response
Although the Chief of Staff, AMCOM, partially agreed, his comments were responsive.
No further comments are required.




                              FOR OFFICIAL USE ONLY
                                        16
       b. Require that the Army Aviation and Missile Life Cycle Management
Command, Integrated Materiel Management Center, not transfer items to Defense
Logistics Agency when future requirements for those items will be supported by
commercial sources.

Department of the Army Comments
The Chief of Staff, AMCOM, partially agreed. The Chief of Staff stated that the
Principal Deputy, Logistics and Materiel Readiness, Office of the Assistant Secretary of
Defense, provided a similar response to DoD IG Report No. D-2011-061. The Chief of
Staff stated that the policy addressing transfer of items already exists in DoD Manual
4140.26-M, Volume 2, “The DoD Integrated Material Management (IMM) for
Consumable Items: Item Management Coding (IMC) Criteria.” The Chief of Staff stated
that the policy states that consumable items that are unique to a weapon system and are
included in a performance-based life-cycle product can be retained by the Military
Departments’ contractor or agent. He also stated that those items that are not unique to a
weapon system will be assigned to DLA or the General Services Administration for
management.

Our Response
Although the Chief of Staff, AMCOM, partially agreed, his comments were responsive.
No further comments are required.




                             FOR OFFICIAL USE ONLY
                                       17
Finding B. No Justification for Material Cost
Reduction Clause Payment
AMCOM officials, as directed by AMC officials, added a material cost reduction clause
into the CCAD/Sikorsky contract, which was not effective in reducing CCAD repair
costs. The clause was designed for Sikorsky and CCAD to share savings associated with
reduced material usage for repair programs. However, the clause was not effective
because AMCOM officials:

       •   used unreliable data to calculate that material costs were reduced by $23.7 million
           from baseline to performance costs;

       •   failed to consider depot labor (hours) costs in its cost reduction methodology; and

       •   omitted repair programs that experienced material cost increases, as required by
           the clause, from its incentive calculation.

As a result, on January 25, 2011, AMCOM officials made an unjustified payment of
$11.8 million for the 2009 performance period (half of the $23.7 million material cost
reduction calculation) based on performance data that included incomplete transactions;
negative transactions, which showed material costs to repair items at less than zero; and
lower material prices procured from sources outside the CCAD/Sikorsky contract. The
incentive calculation also failed to include repair programs with increased depot labor
costs of $26.1 million and repair programs with material cost increases of $15.1 million.
We calculated that overall depot costs increased by $29.3 million for the 70 repair
programs covered under the contract.

Guidance
Material Cost Reduction Clause
The 2009 CCAD/Sikorsky contract included an incentive to reduce material cost at the
depot. According to AMCOM officials, AMC officials directed the inclusion of the
material cost reduction clause before the contract could be awarded. The material cost
reduction clause outlined an equal share of reductions in material costs for repair
programs between AMCOM and Sikorsky. In addition, the clause identified areas of
opportunity related to maintaining accountability of assets, repairing instead of replacing
material, and extending the useful life of parts. The CCAD/Sikorsky contract, dated
November 24, 2008, outlined the concept of the clause and targeted reducing new
material consumption and depot overhaul factors (DOF). 13

                   The Army and Sikorsky agree to a goal of 10% reduction in new
                   material consumption at the depot over the life of the contract. The



13
     The DOF determines how many materials are needed to be replaced in a repair program.

                                    FOR OFFICIAL USE ONLY
                                              18
               approach to providing immediate impact to depot material costs resides
               in the area of driving down depot new material consumption.
               Sikorsky is uniquely postured to provide immediate impact to the usage
               of material by the CCAD labor force throughout the repair process.
               Through a focused approach to reducing depot overhaul factors
               (DOFs), Sikorsky will be incentivized to attack high usage/high
               dollar material and reduce the DOF factors resulting in material
               replacement cost savings to the government. This proactive approach
               to the reduction of material usage will focus Sikorsky on applying
               OEM engineering and logistics expertise toward material
               consumption analysis and usage reduction. Reduced material costs
               will be accomplished while ensuring that there is no degradation to
               quality or Time On Wing of production output. The government and
               Sikorsky will share at a ratio of 50/50 in savings of these reduced
               material costs. [emphasis added]

Federal Acquisition Regulation on Performance Incentives
Federal Acquisition Regulation 16.402-2, “Performance Incentives,” states that both
positive and negative performance incentives should be considered when performance is
critical and incentives are likely to motivate the contractor:
                (a) Performance incentives may be considered in connection with
               specific product characteristics (e.g., a missile range, an aircraft speed,
               an engine thrust, or vehicle maneuverability) or other specific elements
               of the contractor's performance. These incentives should be designed to
               relate profit or fee to results achieved by the contractor, compared with
               specified targets.

                (b) To the maximum extent practicable, positive and negative
               performance incentives shall be considered in connection with
               service contracts for performance of objectively measurable tasks
               when quality of performance is critical and incentives are likely to
               motivate the contractor. [emphasis added]

AMCOM Calculation of Material Cost Savings
AMCOM officials calculated a total material cost reduction of $23.7 million based on
27 repair programs that showed reduced material charges during the performance period.
To calculate the material cost reduction, AMCOM officials relied on total material costs
of each repair program for the baseline and performance periods. AMCOM officials did
not consider any increases in labor or material in its calculation. We focused our review
of AMCOM’s calculations on six repair programs, which had a total reduction of
$23.8 million before a lump-sum adjustment of $2.2 million decreased the total
calculation.




                                FOR OFFICIAL USE ONLY
                                          19
    Table 6 shows AMCOM calculations of material cost savings for the six repair programs
    we reviewed. The repair programs highlighted below are discussed in more detail in the
    following sections.

                 Table 6. “Claimed” Material Savings on Six Repair Programs
                                                                     Total
                             Unit Price (material)                 (millions)             Material
   Repair                                                                                  Savings1
  Program        Qty      Baseline       Performance      Baseline     Performance        (millions)    Percent2
Hydraulic
Accumulator
(RB234)          110         $931.49       $(1,243.49)        $ 0.1             $ (0.1)        $0.2       (233.5)
Servo
Assembly
(RB212)          521       10,608.08         3,955.29           5.5                2.1          3.53        (62.7)
Main
Helicopter
Transmission
(CB494)          180      183,547.08        94,070.26          33.0               16.9         16.1         (48.7)
Mechanical
Transmission
(RB210)          177       32,950.12        17,882.74           5.8                3.2          2.73        (45.7)
Engine Inlet
Assembly
(AB431)          183        9,793.38          5,991.42          1.8                1.1           0.7        (38.8)
Shock
Absorber
(RB246)          225        3,938.87          2,603.09          0.9                0.6          0.64        (33.9)
                                                                   3                  3
   Total                                                         $47.2            $23.7         $23.8
1
  These amounts do not include a $2.2 million adjustment applied as a lump sum to the total savings calculation.
2
  Because the baseline and performance totals are shown in one decimal place, slight rounding inconsistencies may
exist in the percent calculations.
3
  Slight rounding inconsistencies exist because auditor calculations included decimal places.
4
  AMCOM officials calculated material cost savings of $0.6 million; however, the material cost savings should have
been $0.3 million.


    Calculations Were Based on Unreliable Data
    AMCOM officials did not use reliable data in their calculations, which determined that
    material costs were reduced by $23.7 million. Specific deficiencies with the data were
    the substantial amount of incomplete (no material price or quantity) and negative
    transactions as well as lower material prices procured from sources outside the
    CCAD/Sikorsky contract. In addition, AMCOM’s approach failed to adequately measure
    material consumption quantities to account for improved performance. Instead,
    AMCOM officials based their calculations on questionable total program material costs
    captured in LMP.

    Government Accountability Office (GAO) Report No. GAO-10-461, “Actions Needed to
    Improve Implementation of the Army Logistics Modernization Program,” April 30, 2010,
    found that the Army was unable to ensure that the data used by LMP were of sufficient

                                       FOR OFFICIAL USE ONLY
                                                 20
quality to enable the depots to perform their day-to-day missions after LMP became
operational. As a result of these data quality issues, depot personnel had to develop and
use manual work-around processes until they could correct the data in LMP, which
prevented the Army from achieving the expected benefits from LMP. Furthermore, GAO
Report No. GAO-11-139, “Additional Oversight and Reporting for the Army Logistics
Modernization Program Are Needed,” November 18, 2010, stated that data quality issues
persist and have prevented CCAD from achieving expected benefits from LMP.

Program RB234 - Hydraulic Accumulator (NSN 1650-01-222-4316):
LMP Data Showed Negative Program Material Charges
AMCOM officials calculated a total material cost reduction of $239,247 for repair
                                                     program RB234 for their hydraulic
    LMP data used in the performance                 accumulator. Accordingly, AMCOM
       calculation showed a negative                 officials paid Sikorsky $119,624, or
                                                     half of the total reduction calculated.
  material cost of $(136,784), although              The baseline data showed a total
     110 hydraulic accumulators were                 material cost of $102,464 for 110
         repaired during the period.                 hydraulic accumulators. LMP data
                                                     used in the performance calculation
showed a negative program material cost of $(136,784), although 110 hydraulic
accumulators were repaired during the period. Repairing a part with negative material
charges is not possible. We asked CCAD officials to explain what caused the material
charges to become negative and whether these charges were accurate. Although CCAD
officials stated that they relied on LMP data in the calculation, they did not explain what
caused the material charges to be negative during the period. Figure 5 shows the
hydraulic accumulator.

                           Figure 5. Hydraulic Accumulator




Based on our review of LMP data, the negative program material charges primarily relate
to components that were not procured under the CCAD/Sikorsky contract. Specifically,
the data showed that there were 110 components (not procured under the contract) that
had a cumulative negative value of $(239,843). The LMP data also showed
46 components with a cumulative value of $29,016 that were on the CCAD/Sikorsky
contract. In addition, the LMP data included a lump-sum transfer of $74,043 from the
Army’s previous material management system: Standard Depot System (SDS).




                              FOR OFFICIAL USE ONLY
                                        21
Table 7 summarizes LMP transactions for the hydraulic accumulator used to support the
total material costs.

                     Table 7. LMP Data for Hydraulic Accumulator
                           Description                   Parts          Amount
               Components not on contract                 110           $(239,843)
               Components on contract                      46              29,016
               Transfer from SDS                      Not available        74,043
                 Total                                                  $(136,784)


For example, one component not procured under the CCAD/Sikorsky contract that
showed negative material charges was the variable resistor (NSN 5905-01-406-7692).
LMP data showed a negative material charge of $(37,745) but had no quantity. Clearly,
the data AMCOM officials used in their calculation of total material cost were not
reliable to measure Sikorsky’s performance. The negative charges for the
110 components not procured under the contract resulted in an overall negative program
material cost for the hydraulic accumulator.

Carrier Assembly (NSN 1615-01-497-7257) Used on Program CB494:
LMP Data Did Not Relate to Material Consumption Quantities and
Showed Negative or Incomplete Transactions
AMCOM officials calculated $5.2 million in cost reductions for the carrier assembly,
based on total material costs. The baseline data showed a total material cost of about
$5.1 million using 140 carrier assemblies in the repair of 180 main helicopter
transmissions (program CB494). The performance data from LMP showed a total
negative material cost of $(55,642) with a negative quantity of (4) carrier assemblies used
in the repair of 180 main helicopter transmissions. This resulted in a material cost
reduction of over 100 percent, which is not possible. Consequently, AMCOM officials
paid Sikorsky half of the total reduction, or $2.6 million. Table 8 outlines the DOF,
actual quantities, and material costs for the carrier assembly, and Figure 6 shows a carrier
assembly.

           Table 8. “Claimed” Material Savings for the Carrier Assembly
                                                                            Difference
             Description                 Baseline     Performance       Amount        Percent
   DOF quantity (expected usage)               144               144             0            0

   Actual quantity                             140               (4)         (144)       (102.9)

   Unit price for material (rounded)        $36,777         $13,911      $(22,866)        (62.2)

    Amount                               $5,148,740        $(55,642)   $(5,204,383)      (101.1)

    Incentive payment                                                   $2,602,191



                                 FOR OFFICIAL USE ONLY
                                           22
                              Figure 6. Carrier Assembly




AMCOM officials relied on questionable LMP data, which did not relate to expected or
historical material consumption quantities. For example, LMP data included a negative
                                                quantity of (4) carrier assemblies, when the
     LMP data included a negative               DOF calculated a need for 144. As shown
          quantity of (4) carrier               in Table 8, the DOF for both the baseline
       assemblies, when the DOF                 and performance periods calculated a need
        calculated a need for 144.              of 144 carrier assemblies to repair
                                                180 main helicopter transmissions. In the
baseline period, 140 carrier assemblies were used, which related to the DOF quantity.
However, the LMP data that AMCOM relied on did not relate to the DOF quantity and
showed a negative quantity of (4) carrier assemblies used in the performance period.
Again, it is not possible that a negative material consumption quantity could be accurate
to repair 180 main helicopter transmissions. By relying on questionable LMP data on
total material costs instead of measuring material consumption quantities, AMCOM
failed to uncover the erroneous data in LMP.

Another problem of relying on total material costs from LMP was that substantial
negative or incomplete transactions and their effect on material prices went undetected.
For example, the LMP data showed incomplete material prices for 205 (101 positive/
(104) negative) transactions for the carrier assembly. The remaining 21 transactions
(10 positive/(11) negative) had unit prices ranging from $34,001.81 to $44,822.00. As a
result, the LMP data showed a total negative material cost of $(55,642), based on a
negative quantity of (4) at an average unit price of $13,910.55. Meanwhile, the SDS data
did not contain any negative or incomplete transactions. Specifically, the baseline data
from SDS showed 140 carrier assemblies at an average unit price of $36,776.72, based on
several different material prices ranging from $32,694.05 to $61,951.00.




                              FOR OFFICIAL USE ONLY
                                        23
Table 9 compares the transactions captured in LMP and SDS.

           Table 9. Carrier Assembly Comparison of SDS and LMP Data
                        SDS                                   LMP
         Quantity   Unit Price      Total       Quantity   Unit Price      Total
               11   $61,951.00      $681,461          9     $44,822.00   $403,398
                7    37,929.90       265,509          1      34,001.81     34,002
              106    34,704.39      3,678,665       101           0                0
               16    32,694.05       523,105        (11)     44,822.00   (493,042)
                                                   (104)          0                0
              140   $36,776.72     $5,148,740        (4)    $13,910.55   $(55,642)


By basing its calculation on unreliable LMP total material costs instead of measuring
material consumption quantities, AMCOM officials failed to detect incomplete
transactions that lowered the material costs, resulting in an erroneous incentive payment
calculation. Again, the intent of the clause was for Sikorsky to reduce new material
consumption. To appropriately measure reduced material usage, material prices would
need to be constant.

Pinion (NSN 3020-01-088-3673) Used on Program CB494:
LMP Data Did Not Relate to Material Consumption Quantities and
Included Lower Material Prices From Other Sources
AMCOM officials calculated $1.9 million in cost reductions for the pinion, based on total
material costs. The baseline data showed a total material cost of about $2.4 million,
using 200 pinions in the repair of 180 main helicopter transmissions (program CB494).
The performance data from LMP showed a total material cost of $467,579 for
142 pinions used in the repair of 180 main helicopter transmissions. As a result,
AMCOM officials paid Sikorsky half of the total reduction, or $954,823.

The DOF for both baseline and performance periods calculated a need for 360 pinions to
repair 180 main helicopter transmissions. However, significantly lower quantities of 200
and 142, respectively, were used during those periods. Again, AMCOM officials need to
validate material consumption quantities and ensure that they track to the DOF.




                              FOR OFFICIAL USE ONLY
                                        24
Table 10 outlines the DOF, actual quantities, and material costs for the pinion; and
Figure 7 shows a pinion.

                    Table 10. “Claimed” Material Savings on the Pinion
                                                                               Difference
            Description                Baseline     Performance        Amount            Percent
 DOF quantity (expected usage)               360             360                0                  0
 Actual quantity                             200             142              (58)            (29.0)
 Unit price for material (rounded)       $11,886          $3,293          $(8,593)            (72.3)
     Amount                            $2,377,224       $467,579      $(1,909,645)            (80.3)
     Incentive payment                                                   $954,823


                                          Figure 7. Pinion




Because AMCOM officials relied solely on total material costs, lower material prices
procured from other sources outside the CCAD/Sikorsky contract, which influenced the
                                                    calculation, went undetected. For
    The average unit price of $3,292.81             example, the LMP data showed
                                                    142 pinions were used at an average
   used in the calculations was primarily           unit price of $3,292.81. The average
     based on material procured from                unit price of $3,292.81 used in the
   other sources at a significantly lower           calculations was primarily based on
           unit price of $1,576.00.                 material procured from other sources
                                                    at a significantly lower unit price of
          14
$1,576.00. The 2009 CCAD/Sikorsky contract unit price of $7,340.24 was
365.8 percent higher than the $1,576.00 unit price.




14
 The $1,576.00 unit price represents the 2009 moving average price from LMP and was based on previous
AMCOM procurements.

                                     FOR OFFICIAL USE ONLY
                                               25
The baseline data showed 200 pinions were used at an average unit price of $11,886.12,
which was based largely on the 2007 CCAD/Sikorsky contract unit price of $14,544.64.
Table 11 shows a comparison of transactions captured in SDS and LMP for the pinion.
The unit prices highlighted in yellow are the main drivers for the average material costs.

                 Table 11. Pinion Comparison of SDS and LMP Data
                         SDS                                   LMP
         Quantity    Unit Price      Total      Quantity     Unit Price     Total
              128    $14,544.64    $1,861,714         34       $7,340.24   $249,568
               46      7,057.92       324,664        146        1,576.00    230,096
               26      7,340.24       190,846        434            0               0
                                                      (6)       1,576.00     (9,456)
                                                      (2)       1,314.38     (2,629)
                                                    (464)           0               0
              200    $11,886.12    $2,377,224        142       $3,292.81   $467,579


By relying on total material costs, AMCOM officials failed to realize that lower material
prices procured outside the CCAD/Sikorsky contract lowered the material costs, resulting
in an erroneous incentive. Again, the intent of the clause was for Sikorsky to reduce new
material consumption. Therefore, fluctuations in material prices should not be factored
into the calculations and should remain constant, to adequately measure material
consumption quantities.

Given the significant errors contained in AMCOM’s calculation, the incentive payment
of $11.8 million is unjustifiable. The Executive Director, Army Contracting Command -
Redstone Arsenal (ACC-RSA) needs to instruct the contracting officer to obtain a refund
of $11.8 million from Sikorsky for the material cost reduction incentive.
[Recommendation B.1]

Depot Labor Costs Were Not Considered
The cost reduction methodology used by AMCOM officials in the CCAD/Sikorsky
contract did not consider depot labor (hours) costs. The material cost reduction clause
identified specific areas of opportunity for reducing material costs related to maintaining
accountability of assets, repairing instead of replacing parts, and extending useful life of
parts. However, AMCOM officials did not include an equal consideration of depot labor
costs even though some methods recommended to reduce material costs would directly
increase labor costs. For example, repairing parts instead of replacing them will result in
increased depot labor costs, as parts that used to be replaced are now being repaired.

Based on the review of budgeted and expended labor for 68 of the 70 repair programs,
we calculated that 50 repair programs experienced total increases in labor costs of
$27.9 million while 18 repair programs experienced total reduced labor costs of
$1.8 million.



                               FOR OFFICIAL USE ONLY
                                         26
Table 12 shows that depot labor costs increased by $26.1 million for the 68 repair
programs.

                 Table 12. Depot Labor Costs Significantly Increased
                                            Number of       Amount*
                               Labor        Programs        (millions)
                           Increases             50            $27.9
                           Savings               18             (1.8)
                           No Data               2                -
                              Total              70             $26.1
                           *
                            Depot labor costs were calculated based on
                           the 2010 CCAD labor rate of $105.63.


Had depot labor costs received equal consideration as a cost control, Sikorsky would not
have received an incentive payment because labor cost increases of $26.1 million would
                                                    offset AMCOM’s calculated material
   Had depot labor costs received equal             savings of $23.7 million. One
       consideration as a cost control,             example of significant labor increases
    Sikorsky would not have received an             occurred for repair program CB494,
                                                    main helicopter transmission
   incentive payment because labor cost             (NSN 1615-01-503-3115).
      increases of $26.1 million would              Specifically, AMCOM officials had
   offset AMCOM’s calculated material               calculated a total material cost
          savings of $23.7 million.                 reduction of $16.1 million, resulting in
                                                    an incentive payment of $8.1 million
to Sikorsky. However, depot labor hours increased by 64,269.6 (110,739.6 hours
budgeted versus 175,009.2 hours expended), which equates to about $6.8 million of
increased labor costs using the FY 2010 CCAD labor rate of $105.63 per hour. Had
AMCOM officials considered both labor and material costs to calculate its incentive
payment, Sikorsky would have received a reduced payment totaling about $4.7 million
($16.1 million - $6.8 million = $9.3 million * 50 percent share = $4.7 million) for this
repair program. AMCOM’s current strategy will not effectively control depot costs until
labor costs are considered.

Material Increases Were Also Not Considered
The material cost reduction calculation did not include repair programs that experienced
material cost increases because the contract clause required that the increases be
removed. Although the intent of the clause was to incentivize Sikorsky to assist CCAD
in reducing depot material costs, AMCOM officials agreed to zero out any increase in
material costs from its calculation. Therefore, Sikorsky had no disincentive for failing to
control material costs throughout the depot and could pick and choose which programs to
control material costs. As a result, the clause failed to reduce material costs to the depot.




                               FOR OFFICIAL USE ONLY
                                         27
Overall, the clause has not been effective at reducing material costs to the depot, as more
                                                         than 60 percent of the programs
    If AMCOM officials had considered the                experienced material cost
                                                         increases or had no reduction.
    $15.1 million increase in material costs,            Specifically, AMCOM officials
      the overall incentive payment would                calculated $23.7 million of
   have been reduced by $7.5 million, from               reductions for 27 of 70
          $11.8 million to $4.3 million.                 (38.5 percent) repair programs,
                                                         $15.1 million of increases for 37
of 70 (52.9 percent) repair programs, and no change in material costs for 6 of 70
(8.6 percent) repair programs. CCAD officials agreed that material cost increases should
be considered in the calculation but the current contract requires the removal of increases
and the Army must comply with negotiated contract terms. If AMCOM officials had
considered the $15.1 million increase in material costs, the overall incentive payment
would have been reduced by $7.5 million, from $11.8 million to $4.3 million (Table 13).

              Table 13. Total Material Cost Reduction Incentive Payment
                                       (millions)
                                                     Number of         AMCOM
                              Material Cost          Programs           Data
                  Savings                                27                $(23.7)*
                  Increases                              37                  15.1
                  No change                               6                     -
                      Total                              70                 $(8.6)
                     Incentive payment                                       $4.3
                  *
                   A $2.2 million adjustment for mischarge allocations was applied
                  as a lump sum to the total savings calculation.


Repair program B362 for the main rotor blade (NSN 1615-01-106-1903) is an example of
a repair program that experienced significant cost increases. 15 For the baseline period,
the main rotor blade had total material charges of $14.5 million. However, the 2009
performance period data from LMP showed material charges of $23.5 million, resulting
in a total material increase of about $9.0 million. However, the clause required AMCOM
officials to eliminate the increase in material charges from their calculation, which
unfairly inflated Sikorsky’s incentive payment. A significant driver in increased material
costs was the unreasonable price increase for the titanium blade sheath assembly
(sample 1 - NSN 1615-01-390-0740). The price of the titanium blade sheath for the
follow-on contract (2008) increased 114.3 percent (from $7,936.57 to $17,004.39) from
the 2007 CCAD/Sikorsky contract price.




15
 The main rotor blade has two separate repair programs: RB362 and FB362. We combined the total
material costs for each in our calculations.

                                   FOR OFFICIAL USE ONLY
                                             28
Changes Are Needed to Control Depot Costs
The incentive clause established in the CCAD/Sikorsky contract did not effectively
control costs at the depot. We calculated that depot costs increased by $17.5 million,
when increased labor ($26.1 million) and material costs ($15.1 million) are factored into
the calculation. When AMCOM’s unjustified payment to Sikorsky of $11.8 million is
included, overall depot costs increased by $29.3 million (Table 14).

        Table 14. Comparison of Material and Labor Costs for Repair Programs
                                     (millions)
                                         No. of
                  Description           Programs         Material           Labor1           Total
                                          Material Cost Savings
   Labor costs increased                    21               $(24.7)         $11.1             $(13.6)
   Labor costs reduction                     6                 (1.1)           (0.9)             (2.0)
                   2
   Adjustment                                                   2.2                               2.2
                                                                        3
       Subtotal                             27              $(23.7)           $10.2            $(13.4)
                                                                  4
                                        Material Cost Increases
   Labor costs increased                    29                $14.1           $16.7             $30.9 3
   Labor costs reduction                    12                    0.9          (0.9)                 0
       Subtotal                             41                $15.13          $15.8             $30.9 3
        Total cost                          68                $(8.6)          $26.13            $17.5
   Incentive payment to Sikorsky                                                                $11.8
      Final cost increase                                                                       $29.3
   1
    We calculated depot labor costs using 2010 CCAD labor hour rate of $105.63.
   2
    AMCOM applied a lump-sum adjustment for mischarge allocations to the material savings.
   3
    Slight rounding inconsistencies exist because auditor calculations included decimal places.
   4
    Includes four programs that had labor data, but their material costs remained the same for both the
   baseline and performance periods.


For incentive clauses to be effective there must be an equal penalty or disincentive for
nonperformance tied to an incentive for improved performance (Federal Acquisition
Regulation 16.402). Immediate changes to the CCAD/Sikorsky contract incentive clause
are needed to account for increases in labor and material costs. AMCOM officials also
need to approach its measurement of improved performance by adequately measuring
material consumption quantities as originally intended.

The contracting officer needs to immediately remove the material cost reduction clause
from the contract unless reliable data are used, which

   • relate to DOFs;
   • remove lower material prices procured from sources outside the contract; and
   • provide for equal consideration of labor and material cost increases.
[Recommendation B.2]

                                  FOR OFFICIAL USE ONLY
                                            29
Recommendations, Management Comments, and Our
Response
B. We recommend that the Executive Director, Army Contracting Command –
Redstone Arsenal, instruct the contracting officer to:

   1. Obtain a refund of $11.8 million from Sikorsky for the material cost
reduction incentive.

Department of the Army Comments
The Principal Assistant Responsible for Contracting, ACC-RSA, partially agreed. She
stated that the focus of the material cost reduction clause was to reduce material cost to
the depot. Further, she stated that the intention was to include an incentive for material
decreases and disincentive for material increases. However, in order to obtain agreement
to a year-to-year baseline adjustment, the Army did not include a disincentive for
material increases. She also stated that there was evidence of a benefit to the
Government from the yearly baseline adjustment of the material costs because 8 of the
26 programs completed in 2010 reflected reductions of $1.2 million. She agreed that
some programs reflected increases in material costs and stated that ACC is investigating
these programs to determine the reasons for the increases. Further, she stated that if
Sikorsky “should or could have influenced for reductions, [ACC] will take appropriate
action.” She stated that with the implementation of LMP, CCAD had to make manual
adjustments to properly account for material and that the data used to calculate the
incentive payment reflected these adjustments. She stated that under the current terms of
the contract and based on a review of all current data, Sikorsky has earned the incentive
payment of $11.8 million.

She did not agree with the calculations that included depot labor costs as part of
measuring performance of this contract. She stated that there was no evidence that the
increased labor costs resulted from this contract and that Sikorsky does not have the
ability to substantially influence depot labor required for maintenance.

The Principal Assistant Responsible for Contracting stated that the overall concept of a
reduction of DOFs is that there should be a corresponding reduction in material required.
She also stated a significant portion of DOF changes can be contributed to some process
improvements that Sikorsky brought to the depot. Further, DOF changes from 2009 to
2010 reflect an overall reduction of $21.8 million.

The Principal Assistant Responsible for Contracting also stated that the depot has
implemented an improvement going forward to develop fully trained contracting officer
representatives to provide a more detailed level of contract oversight and improve
processes.

Our Response
Comments from the Principal Assistant Responsible for Contracting, ACC-RSA, were
not responsive. We disagree that the available data show that Sikorsky has earned an

                             FOR OFFICIAL USE ONLY
                                       30
incentive payment of $11.8 million. As shown in the report, the calculation is based on
unreliable data, which include negative material program charges and quantities as well
as incomplete transactions that are obvious errors and warrant corrective action.

In addition, we disagree that the tradeoff of the readjustment of baselines yearly in return
for excluding material increases (equal disincentive) represents the best value for the
Government. Further, the Army’s position of focusing solely on material decreases,
while ignoring material increases, will not adequately measure performance or ensure
proper use of DoD and taxpayer funds.

We request that the Principal Assistant Responsible for Contracting, ACC-RSA,
reconsider her position and provide additional comments in response to the final report.

   2. Immediately remove the material cost reduction clause from the contract
unless reliable data are used, which relate to depot overhaul factors, remove lower
material prices procured from sources outside the contract, and provide for equal
consideration of labor and material cost increases.

Department of the Army Comments
The Principal Assistant Responsible for Contracting, ACC-RSA, partially agreed. She
stated that a suspension of the material cost reduction incentive will be negotiated for the
remaining FY 2011 and FY 2012 programs pending the results of the investigation
regarding the increases in material costs. She also stated that she agreed with the IG that
there was no contract disincentive even though it is a preferred method in performance-
based clauses. She further stated that if Sikorsky “should or could have influenced for
reductions, [ACC] will request an appropriate refund.” Again, she stated that the Army
did obtain benefit from recalculating the baseline year-to-year. In addition, she stated
that the results of the Army evaluation of performance data are viewed to be accurate.

Our Response
Comments from the Principal Assistant Responsible for Contracting, ACC-RSA, were
not responsive. Although a pause for the remaining contract period is a step in the right
direction, the response failed to meet the intent of the recommendation.

We disagree with the Army’s position of focusing solely on material decreases while
ignoring any and all material increases when measuring performance. We also disagree
with the Army’s contention that Sikorsky does not have the ability to substantially
influence depot labor. As shown in the report, some methods to reduce material costs
will directly result in increased labor costs. Further, the contract statement of work
requires Sikorsky to provide recommendations for improving production, based on best
commercial practices, to include modifying existing and incorporating new work
instructions. AMCOM is paying about $30 million annually under the contract for
TELSS support for the Blackhawk helicopter
                                                      Therefore, it seems prudent that the
Army would measure the impact that Sikorsky has on its labor costs in addition to
material costs. We request that the Principal Assistant Responsible for Contracting,

                              FOR OFFICIAL USE ONLY
                                        31
ACC-RSA, provide additional comments in response to the final report, which address
the intent of the recommendation. Specifically, the comments should address how the
quality of data will be improved, adding an appropriate disincentive and providing for
equal consideration of all depot costs to ensure the measurement of Sikorsky’s impact on
performance.




                            FOR OFFICIAL USE ONLY
                                      32
Finding C. Splitting Requirements for
Consumable Items Was Not Cost-Effective
The CCAD/Sikorsky contract was splitting instead of consolidating procurement and
material sustainment responsibilities for consumable items purchased on the contract.
Consequently, Sikorsky and either the Army or DLA were procuring and managing the
same items, and Sikorsky was procuring items from DLA and charging AMCOM higher
prices. Specifically, Sikorsky had responsibility for procuring and managing items used
at CCAD while either the Army or DLA had responsibility for procuring and managing
the same items to meet requirements outside of CCAD. This occurred because AMCOM
officials had not:

     •   developed an effective procurement and material management strategy that
         addressed the most cost-effective source of supply for consumable items, and

     •   addressed an appropriate markup for Sikorsky on items procured from DLA.

Using the DoD EMALL, we identified that DLA had sufficient inventory to satisfy
annual CCAD/Sikorsky contract requirements for 3,267 items and that the total contract
price for these items was $7.6 million, or 85.1 percent, higher than the total DLA price. 16
Although AMCOM officials were able to reduce contract prices for 29 items by $217,842
by procuring 2010 requirements from DLA inventory, we question the decision to pay a
full markup                                                                to Sikorsky on
these items. Further, from 2008 to 2010, Sikorsky made a 58.7 percent profit, or
$930,760, on 449 items purchased from DLA, which were sold to CCAD at the contract
price.

CCAD/Sikorsky Contract Procurement Strategy
Purchases for CCAD Requirements
Since December 2002, AMCOM has procured from Sikorsky services and supplies to
support CCAD in the overhaul and repair of the Blackhawk helicopter weapon system.
The March 26, 2008, justification and approval for other than full and open competition
on the CCAD/Sikorsky contract stated that no other company had the ability to provide
100 percent of items required while also providing technical, engineering, and logistical
support services. The justification and approval further stated that AMCOM and DLA
would continue to serve as the national inventory control point to support customers other
than CCAD.



16
  In addition, we identified another 748 items for which the total contract price was $14.5 million, or
64.3 percent, higher than the total DLA price, but DLA did not have sufficient inventory to meet contract
requirements, and 1,990 items for which the total contract price was $12.5 million less than the total DLA
price.

                                   FOR OFFICIAL USE ONLY
                                             33
Figure 8 shows the material flow under the CCAD/Sikorsky contract. Under the contract,
Sikorsky is responsible for supplying materials to meet CCAD requirements.

                            Figure 8. Purchases for CCAD Requirements

                 Awards Contract



                                         Sikorsky
    AMCOM                          (Integrated Supplier)                                                 Sikorsky Technical
                                                                                                        Engineering Support
    Purchase Parts
                                                                   Manufacture Parts                      (On-site CCAD)




  Manufacturers or           DLA                      Sikorsky Aircraft
     Vendors                                            Stratford, CT
                                                                                                  Parts Needed
                                                                 Ship Parts
                                                                                                   for Repair




                                                                            CCAD Building 22                CCAD Repair
                                                                       (Derco contractor Warehouse)          Operations


                                    Requisition New
                                         Item                                          Repaired Items




                     Warfighter                            DLA Depot                   ---- Indicates movement of parts




AMCOM and DLA Purchases for Other Customers
Historically, either AMCOM or DLA procured different consumable items which were
used to meet CCAD and other customer requirements. Since December 2002, AMCOM
has relied on Sikorsky to provide material for CCAD requirements with technical,
engineering, and logistical support services for the Blackhawk helicopter. However,
DLA and the Army continue to procure the same items to support customers other than
CCAD.




                                          FOR OFFICIAL USE ONLY
                                                    34
Figure 9 shows the material flow of items managed by either AMCOM or DLA to
support customers other than CCAD.

              Figure 9. AMCOM and DLA Purchases for Other Customers

                                                           Requisition New
                                                               Items



       AMCOM
   Contracting Officer
                                                                                         Foreign Military
                                                                Repaired Items                Sales
              Awards Multiple
                Contracts




                             Ship Parts                        Parts Needed for Repair




                                               DLA Depot
    Manufacturers or
                                                                                          CCAD Special
       Vendors
                                                                                         Repair Programs

                 Awards Multiple
                   Contracts

                                                           Requisition New
                                                               Items




                                                                                            Warfighter

      DLA Contracting
          Officer                                                            ---- Indicates movement of parts




DoD Needs an Effective Strategy for Procuring Material
DoD did not have an effective material management strategy for consumable items to
promote economic order quantities and competition between contractors and DLA. The
consumable item transfers and other consolidation efforts were supposed to give more
buying power (leverage) to DLA through the transfer of procurement management and
related support functions. However, because Sikorsky, AMCOM, and DLA were
procuring different quantities of the same items, leverage was not fully realized.

Economic Order Quantities Were Not Considered
Procuring items in economic order quantities is a statutory requirement. Section 2384a,
title 10, United States Code, “Supplies: economic order quantities,” states that agencies
“…shall procure supplies in such quantity as (A) will result in the total cost and unit cost
most advantageous to the United States where practicable.” Having more than one entity



                                          FOR OFFICIAL USE ONLY
                                                    35
procuring the same items is not a best business practice and frequently does not allow
DoD to take advantage of economic order quantities. Table 15 shows examples where
higher quantities procured resulted in lower unit prices.

          Table 15. Examples of DLA Items With Economic Order Quantity Issues
                  2010 Sikorsky                        Historical                         Price
  Sample            Contract           Sikorsky       Procurement      Historical       Difference
  Number            Quantity           Unit Price       Quantity       Unit Price*      (Percent)
                          Sikorsky Contract Price Was More Than DLA Price
     87                 84               $3,227.75       2,369              $1,512.25        113.4
     111                409                 514.60       1,236                143.72         258.1
     330                304                 284.46        906                    8.37       3,298.6

                          DLA Price Was More Than Sikorsky Contract Price
     192                51               $2,921.38         4                $6,720.00        130.0
     215               2,640                 50.93         2                  106.91         109.9
     229               2,546                 50.93         7                  105.61         107.4
*Includes DLA cost recovery rate.


In addition, a specific example for an AMCOM part (transferred to DLA in January
2011) where economic order quantities affected prices is the electrical ring assembly
(Sample 71 - NSN 5977-01-432-9247) used on the Blackhawk helicopter. In November
2008, AMCOM procured 642 electrical ring assemblies at a unit price of $8,200.00.
During the same period, Sikorsky procured                 parts from the same supplier at
unit prices                             or differences                           The
annual demand for customers other than CCAD for this item is 349. Since the CCAD
annual requirement (less than 20 on average) is too small to be economical, it would
make sense for the requirement to be combined with the other user demands to receive a
lower, more economical price. Figure 10 shows an electrical ring assembly and Table 16
shows the pricing information.

                     Figure 10. Sample 71 – Electrical Ring Assembly




                                    FOR OFFICIAL USE ONLY
                                              36
            Table 16. Pricing Information for the Electrical Ring Assembly
                                                                                             Percent
                                                Date        Quantity      Unit Price
                                                                                            Difference
     AMCOM procurement (Moog)                  11/2008         642        $ 8,200.00
     Average Sikorsky price                   2008-2010
     Average Sikorsky burdened price          2008-2010
     Sikorsky purchase order -                4/16/2010
     5500069731
     Burdened Sikorsky purchase order -       4/16/2010
     5500069731
                                                2008           6/17        17,116.32*
     CCAD/Sikorsky contract                     2009          11/10        17,791.36
     negotiated/procured quantity               2010           11/7        18,503.02
                                                2011            28         19,243.14
                                                2012            28         20,012.86
     *Weighted average of the two bridge contract unit prices based on contract quantity.



The DoD EMALL Is a Valuable Pricing Tool and Can Stimulate
Competition Between DLA and Sikorsky
We compared CCAD/Sikorsky 2010 contract prices with the DoD EMALL prices (DLA
standard unit price) for 6,005 of 7,093 total items on the CCAD/Sikorsky contract. 17 The
price analysis showed that a substantial reduction of prices could be obtained if items
were procured from DLA rather than from Sikorsky under the CCAD/Sikorsky contract.




17
  We excluded a total of 1,088 items because they had no demand and no inventory or there was no data
available for comparison in the DoD EMALL.

                                    FOR OFFICIAL USE ONLY
                                              37
As shown in Figure 11, the CCAD/Sikorsky contract prices were significantly higher
than the DLA prices for a large number of items being procured under the
CCAD/Sikorsky contract.

        Figure 11. The CCAD/Sikorsky Contract Prices Were Significantly Higher
                                 Than DLA Prices




             *
              To show an equal comparison, we capped increases and decreases at +/- 500 percent. To permit decreases to
             exceed 100 percent, we used the DLA price as the numerator and the contract price as the denominator.




Specifically, we identified 3,267 items on the CCAD/Sikorsky contract that cost
$16.4 million, although the DLA price was only $8.9 million—a difference of
$7.6 million,18 or 85.1 percent (110.2 percent median)—and DLA had sufficient
inventory of the items to satisfy annual contract requirements. The median or item 1,634
of the 3,267 items was 110.2 percent higher than the DLA price; however, because many
of the items had economic order quantity issues and were low-dollar items, the average
was only 85.1 percent. For example, DoD EMALL shows that for a light lens
(NSN 6220-01-155-0859), DLA had 3,532 in inventory valued at $49.98 each with an
annual demand of 5, while the 2010 CCAD/Sikorsky contract requirement was 2 pieces
at a unit price of $628.13, or 1,156.8 percent higher than the DLA price. We see no
reason for the Army to procure the item from Sikorsky rather than DLA to support
CCAD requirements.

We identified another 748 items priced at $37.1 million, but the DLA price was only
$22.6 million: a difference of $14.5 million, or 64.3 percent (76.3 percent median).
However, DLA did not have enough inventory to meet contract requirements. We also
identified 1,990 items for which the contract price was only $28.8 million, and the DLA
price was $41.3 million, or 43.4 percent (28.4 percent median). AMCOM officials could
make a case to procure these items from Sikorsky after excess DLA inventory was
depleted.


18
     Slight rounding inconsistencies exist because auditor calculations include decimal places.

                                           FOR OFFICIAL USE ONLY
                                                     38
As shown in Table 17, DLA had thousands of items in inventory that could satisfy
CCAD/Sikorsky contract requirements at significantly lower prices.

               Table 17. DLA Inventory Could Satisfy CCAD Requirements
                                          DLA               2010 Total Price           Difference
                         Number         Inventory       Contract        DLA
      Description        of Items       (millions)      (millions)    (millions)    Amount     Percent
                  DLA had sufficient inventory to satisfy annual contract requirements
 Contract unit price is         3,267          $ 98.3         $ 16.4           $8.9        $7.6      85.1
higher than DLA price.                                                                   Median     110.2
                   DLA had insufficient inventory to satisfy annual contract requirements
                                  748              7.6          37.1          $22.6         $14.5    64.3
 Contract unit price is
higher than DLA price.                                                                   Median      76.3

                                1,990            61.1           28.8          $41.3         $12.5    43.4
  DLA price is higher
than contract unit price.                                                                Median      28.4

 Comparable data were
    not available.              1,088              6.3          83.1

     Total                       7,093        $173.2*         $165.4
*
  Slight rounding inconsistencies exist because auditor calculations include decimal places.


The contracting officer needs to include a contract clause that requires Sikorsky to obtain
consumable items from DLA as the first source of supply when cost-effective and
practical. [Recommendation C.1]

The DoD EMALL was an extremely effective tool for performing a basic price analysis
of contract prices and determining whether DLA had the best price and sufficient
                                              inventory to meet contract requirements
     DoD needs to adopt a strategy            or whether the contractor had better
                                              prices. DoD needs to adopt a strategy that
    that allows DLA to compete with
                                              allows DLA to compete with contractors
         contractors on Services              on Services requirements. Using the DoD
               requirements.                  EMALL in acquisition planning would
                                              have also uncovered much of the excess
inventory discussed in Finding A and pricing problems that will be discussed in a
separate report on the CCAD/Sikorsky contract.

Sikorsky Made Excessive Profits on Purchases From DLA
Purchases from DLA Considered Contractor-Furnished Material
The CCAD/Sikorsky contract encouraged Sikorsky to use DLA as a source of supply,
and it allowed these items to be treated as contractor-furnished material instead of
Government-furnished material, which permitted Sikorsky to charge the negotiated


                                    FOR OFFICIAL USE ONLY
                                              39
contract price regardless of the cost of obtaining the item from DLA. Specifically,
contract clause H-4, “Government Source of Supply,” stated:

                  The contractor and subcontractor are authorized and encouraged to use
                  DLA as a source of supply IAW [in accordance with] FAR Clause
                  52.251-1 for DLA managed items that are determined to be the best
                  value to the Government in terms of price, delivery, and quality….Any
                  acquisitions from DLA will be a direct transaction between Sikorsky
                  Aircraft Corporation and DLA. Parts and supplies acquired from DLA
                  are considered contractor acquired property rather than Government
                  furnished property.

DLA requisition data showed that Sikorsky procured 449 items for $1.6 million from
DLA to satisfy CCAD requirements from 2008 through 2010. However, Sikorsky
charged AMCOM the negotiated contract price of $2.5 million for the 449 items and
made a profit of 58.7 percent, or $930,760, on the items that it bought from DLA.
Table 18 shows the excessive profit made on purchases from DLA by contract year.

 Table 18. Sikorsky Excessive Profit on Purchases From DLA (Clause H-4)
                                           Total Price*                            Excessive Profit

    Contract Year                  DLA                    Contract            Amount            Percent
         2008                       $ 991,335                $1,508,944           $517,609            52.2
         2009                          133,118                 222,921              89,803            67.5
         2010                          462,382                 785,730             323,348            69.9

        Total                       $1,586,834               $2,517,594           $930,760            58.7
*Slight rounding inconsistencies exist because auditor calculations include decimal places.


The contracting officer needs to request that Sikorsky provide a refund of $930,760 for
excessive profits charged to purchases from DLA. [Recommendation C.2]

Annual Price Adjustments on Purchases from DLA
AMCOM officials attempted to receive lower prices when Sikorsky was procuring from
DLA in a contract clause that called for an annual readjustment of prices. However,
Sikorsky was the final decision maker on which items were selected to be procured from
DLA and was allowed to charge its full burden rate                  which included profit
                to the DLA sell price. Specifically, contract clause H-21, “Price
Adjustments for DLA Supplied Material,” stated:

                  In anticipation of the contractors potential partnering agreement with
                  the DLA to supply material for the performance of this contract, the
                  parties agree to adjust the unit pricing in Attachments 2 and 3 on an
                  annual basis for specific items that the contractor purchases from the
                  DLA at a lower price. This adjustment will be made for a select number
                  of components for the first year of the contract and for a more
                  comprehensive list of components for each succeeding year.


                                   FOR OFFICIAL USE ONLY
                                             40
Contract unit prices for 29 items were reduced for 2010 contract requirements, which
resulted in total price reduction of $217,842. Although, AMCOM officials were able to
reduce contract prices, we question the appropriateness of paying the DLA sell price (cost
of procuring the item from suppliers plus markup to cover overhead expenses) plus a full
markup                    to Sikorsky to obtain material from DoD (DLA) warehouses to
support CCAD requirements. In effect, AMCOM officials are paying two markups to
obtain these items under this clause. Table 19 shows that Sikorsky made
profit in procuring items from DLA inventory in 2010.

          Table 19. Sikorsky Profit on Purchases From DLA (Clause H-21)
       Contract                                     Total Adjusted
        Year            Total DLA Price             Contract Price           Profit         Percent
         2010                                               $258,009


Discussions between Sikorsky and AMCOM officials are ongoing to expand the number
of items to 1,177 for 2011. If these items valued at almost $7 million were procured from
DLA, Sikorsky would receive                         markup on the DLA prices. Another
concern regarding this clause is that Sikorsky is incentivized to reduce material costs in
the depot (as previously discussed in Finding B). Clearly, it does not make sense for
Sikorsky to profit from DLA’s lower prices. While we agree there is some cost
associated with obtaining material from DoD inventory, paying Sikorsky                   for
this service is excessive. Table 20 details the Sikorsky burdens and profits (wrap rate)
charged to costs under the CCAD/Sikorsky contract. While some of the Sikorsky burden
costs would be applicable to items obtained from DLA, other costs would not be
applicable.

                  Table 20. Sikorsky Wrap Rate                                Detail
                                                                Amount         Applicable
                        Sikorsky Wrap Rate
                                                               (percent)         Cost
                                                                                 None
                                                                                  Some
                                                                                  None
                                                                                  Some
             Subtotal – Burdens
             (including cost of money)

             Negotiated contract profit (rounded)                                     ?
                Total Markup
             1
               Slight rounding inconsistencies exist because auditor calculation includes
             decimal places.
             2
               Negotiated contract profit of              was rounded to one decimal
             place for consistency purposes.


We agree that there are some general and administrative costs that would be borne by
Sikorsky in obtaining the material from DLA. However, AMCOM officials must
recognize that buying inventory from DLA does not require Sikorsky to negotiate prices
                                 FOR OFFICIAL USE ONLY
                                           41
with suppliers, make commitments, tie up funding, maintain inventory, and manage
supplier deliveries. Therefore, profit should be minimal, if any, and the cost associated
with the service provided should be far less than its full burden rate charged to meet other
contract requirements.

The contracting officer needs to determine an appropriate markup and modify contract
clauses related to DLA procurements to prevent Sikorsky from making excessive profits.
[Recommendation C.3]

Consolidation Goals Not Being Met
The intent of the inventory control point consolidation and the 2005 BRAC supply and
storage recommendations were to make DLA the single, integrated consumable item
procurement manager to leverage DoD’s buying power. However, the CCAD/Sikorsky
contract split requirements instead of consolidating procurement and material-
sustainment responsibilities for consumable items. As a result, Sikorsky and either the
Army or DLA were procuring and managing the same items. Using more than one entity
to supply the same items is contradictory to the consolidation goals of the CITs of the
early 1990’s and the 2005 BRAC supply and storage recommendations.

Consolidation of Inventory Control Points
Historically, DLA and the Services had inventory control points for materiel
management. On July 3, 1990, the Deputy Secretary of Defense approved the
recommendation in Defense Management Report Decision 926, “Consolidation of
Inventory Control Points,” to transfer item management responsibility for approximately
one million items from the Services to DLA. The report concluded that the transfer of
items to DLA was both cost-effective and desirable, and would produce estimated
recurring annual savings of between $45 million to $49 million (FY 1989 dollars)
beginning in FY 1995. The intent of the transfer was to consolidate the management of
items based on the premise that DLA could manage the items with fewer resources than
the Services. Consolidating the Services requirements would also enable DoD to achieve
economic order quantities when procuring consumable items. The consolidation was also
designed to eliminate the duplicate management of consumable items within DoD.

2005 BRAC Recommendations
The supply and storage recommendations of the 2005 BRAC were largely in line with the
intentions of the CIT during the early 1990s. Specifically, the 2005 BRAC
recommendations directed the Services to realign or relocate management and related
support functions for the procurement of depot-level repairable to DLA and to relocate
item management to DLA to consolidate missions and reduce excess capacity. The
realignment was designed to make DLA the single, integrated procurement manager to
leverage DoD’s buying power. The 2005 BRAC recommendations call for consolidating
requirements of certain items to DLA by September 30, 2011. The 2005 BRAC
Recommendation 176 relates to the procurement and management of aviation depot-level
repairables and consumable items, realigning functions from AMCOM to DLA.
Specifically, Recommendation 176, “Depot-Level Repairable Procurement Management
Consolidation,” states:
                             FOR OFFICIAL USE ONLY
                                       42
               Realign Redstone Arsenal, AL, as follows: relocate the
               Budget/Funding, Contracting, Cataloging, Requisition Processing,
               Customer Services, Item Management, Stock Control, Weapon System
               Secondary Item Support, Requirements Determination, and Integrated
               Materiel Management Technical Support Inventory Control Point
               functions for Aviation Consumable Items to Defense Supply Center
               Richmond, VA, and reestablish them as Defense Logistics Agency
               Aviation Inventory Control Point functions; [and] disestablish the
               procurement management and related support functions for Aviation
               depot-level repairables and designate them as Defense Supply Center
               Richmond, VA, Aviation Inventory Control Point functions.

Additional Reviews Needed to Determine the Effectiveness
of Consolidation
The procurement and materiel management consolidation goals and associated savings
that were addressed in the 1990s and 2005 BRAC supply and storage recommendations
were not being achieved. The CCAD/Sikorsky contract was basically contracting out the
DLA mission and will decrease competition and the effective use of DLA assets, increase
excess capacity, and make DLA increasingly more inefficient, unless DoD develops an
effective strategy to procure and manage these items. More reviews of DoD’s
implementation of BRAC recommendations are needed to determine their effectiveness
and DLA’s role in providing support to the Services.

Management Comments on the Finding and Our
Response
Department of the Army Comments
The Principal Assistant Responsible for Contracting, ACC-RSA, stated that contract
prices were higher than DLA prices, as reflected in the business case analysis, but were
offset by the benefits gained. She stated that the achievements under the contract
included a 33 percent reduction in repair turnaround time, a 70 percent reduction in back
orders, and a 275 percent increase in production since 2003. Further, she stated that
AMCOM procuring contract requirements from DLA inventory would have potentially
cost an additional $4.9 million.

Our Response
AMCOM needs to develop a more effective procurement and material management
strategy that addresses the most cost-effective source of supply. The current strategy did
not promote economic order quantities or competition between Sikorsky and DLA.
Instead, the strategy fragmented requirements leading to higher prices. DoD EMALL is a
valuable tool in performing a basic price analysis to determine whether DLA had the
lower price and sufficient inventory to meet contract requirements or whether Sikorsky
had lower prices. Using DoD EMALL, AMCOM officials can determine who can
provide the material at the lowest price. Further, Table 17 (page 39) shows that had



                              FOR OFFICIAL USE ONLY
                                        43
AMCOM procured all contract requirements from DLA, the costs would have been
$9.6 million less, not $4.9 million more. Also, the report recommends procuring those
items from DLA only when cost-effective and practical to do so.

We agree that when two sources (Sikorsky and DLA) maintain inventory, it is easier to
reduce back orders and increase parts availability, which positively impact production.
Further, current operations in Afghanistan and Iraq have increased requirements for
additional production.

Recommendations, Management Comments, and Our
Response
C. We recommend that the Executive Director, Army Contracting Command –
Redstone Arsenal, instruct the contracting officer to:

      1. Require Sikorsky to obtain consumable items from the Defense Logistics
Agency as the first source of supply when cost-effective and practical.

Department of the Army Comments
The Principal Assistant Responsible for Contracting, ACC-RSA, agreed. She stated that
in 2009 Sikorsky and DLA executed a memorandum of agreement where Sikorsky would
purchase material from DLA, when DLA identified sufficient stock for CCAD
requirements and when cost-effective. She stated that Sikorsky has adjusted contract
prices in 2010 and 2011 by $646,000 and $304,000, respectively, for items procured from
DLA.

Our Response
Comments from the Principal Assistant Responsible for Contracting, ACC-RSA, were
responsive. However, our data show price reductions for 2010 as only $217,842. No
further comments are required.

      2. Request that Sikorsky provide a refund of $930,760 for excessive profits
charged on purchases from the Defense Logistics Agency.

Department of the Army Comments
The Principal Assistant Responsible for Contracting, ACC-RSA, disagreed. She stated
that the fact that Sikorsky applies its         markup does not equate to excessive profits
and that the effort and risk to the contractor must also be considered. She also stated that
delays in delivery or failure to meet quality requirements when procured from DLA shall
not be deemed Government-caused and, therefore, add additional risk to Sikorsky.

Our Response
Comments from the Principal Assistant Responsible for Contracting, ACC-RSA, were
not responsive. The comments did not meet the intent of the recommendation and failed
to address the practice of charging the negotiated contract price regardless of the costs of
obtaining the item from DLA inventory. For example, Sikorsky procured six seat support

                             FOR OFFICIAL USE ONLY
                                       44
assemblies from DLA at a unit price of $143.26 each. However, AMCOM paid Sikorsky
the contract unit price of $2,510.06, a total markup of $14,201 or 1,652.1 percent. The
excessive prices charged have no relationship to Sikorsky’s           markup. Again, a
more cost-effective, commonsense procurement strategy is needed. We request that the
Principal Assistant Responsible for Contracting, ACC-RSA, provide additional
comments in response to the final report, which adequately address Sikorsky charging
AMCOM a contract price that is significantly higher than its cost to obtain the item from
DLA and detail efforts to obtain a refund.

       3. Determine an appropriate markup and modify contract clauses related to
purchases from the Defense Logistics Agency to prevent Sikorsky from making
excessive profits.

Department of the Army Comments
The Principal Assistant Responsible for Contracting, ACC-RSA, partially agreed. She
stated that the intent of the clause is to treat all DLA-furnished material as contractor-
furnished material because using DLA as a source will not relieve Sikorsky of meeting all
contract metrics. She also stated that delays in delivery or failure to meet quality
requirements when procured from DLA shall not be deemed Government-caused and,
therefore, add additional risk to Sikorsky. She also stated that the services performed by
Sikorsky to procure material from DLA are very similar to Sikorsky procuring material
from its commercial suppliers and, therefore, these functions support a markup
commensurate to Sikorsky’s markup. Further, she stated that if Sikorsky did not fully
burden the DLA costs this would result in inconsistent application of rates and cause
Sikorsky to be noncompliant with their Cost Accounting Standards Disclosure Statement.

Further, she stated that if Sikorsky and DLA can negotiate an agreement where material
can be fully supported by DLA, a reduced markup will be negotiated in the follow-on
contract. She also stated that AMCOM will review Sikorsky’s markup to ensure that
Sikorsky’s overall prices are not excessive when using DLA as a source of supply under
the contract.

Our Response
Although the Principal Assistant Responsible for Contracting, ACC-RSA, partially
agreed, her comments were responsive. No further comments are required.




                             FOR OFFICIAL USE ONLY
                                       45
Appendix A. Scope and Methodology
We conducted this performance audit from November 2009 through July 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our finding and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Interviews and Documentation
We met with the Commander, CCAD, and the Director, Support Operations, AMC. We
interviewed and obtained information regarding CITs and 2005 BRAC transfers from
officials at AMCOM. We interviewed and obtained demand and inventory information
for the Blackhawk weapon system from officials of the AMCOM Integrated Materiel
Management Center, Redstone Arsenal, Alabama; CCAD, Texas; the Defense
Distribution Depot Corpus Christi, Texas; and DLA Distribution Depot Susquehanna,
Pennsylvania. We interviewed and obtained material cost reduction and reduced turn
around time information from officials at CCAD, Texas, and AMCOM, Redstone
Arsenal, Alabama. We interviewed and obtained acquisition planning documentation
from personnel of the AMCOM Contracting Center, Redstone Arsenal, Alabama. We
reviewed the United States Code and Federal Acquisition Regulation for guidance on
acquisition planning, economic order quantities, inventory, and contract incentives. We
used Electronic Documentation Access System to obtain and review the current
CCAD/Sikorsky contract W58RGZ-09-D-0029 and modifications issued from December
2008 through December 2010.

Nonstatistical Sample Selection
We selected a sample of 332 items based on the top 80 percent of the total contract value,
which was selected from both the components and airframe material for contract
W58RGZ-09-D-0029. The sample items represented $496.1 million of the total
$619.9 million of material on the contract. We used the Haystacks Gold System to
determine whether the items were managed by the Army or DLA. Of the sample items,
we identified 93 Army items, valued at $187.4 million; 184 DLA consumables, valued at
$171.3 million; and 55 CITs, valued at $137.5 million.

Inventory Analysis
We reviewed the current CCAD/Sikorsky contract requirements and existing DoD
inventory for our sample items to identify excess existing inventory that could be used to
meet current and future CCAD/Sikorsky contract requirements. Additionally, we used
DoD EMALL to obtain and review stock on hand, consumption data, and the DLA
standard unit price for 7,093 items on the CCAD/Sikorsky contract to identify existing
DLA inventory that could be used to meet contract requirements. We also reviewed data




                             FOR OFFICIAL USE ONLY
                                       46
for consumable items in our sample that were transferred to DLA in accordance with a
2005 BRAC recommendation to determine if the CCAD/Sikorsky contract requirements
were also transferred.

Price Analysis
We used the DoD EMALL to compare the CCAD/Sikorsky contract price with the DLA
price for 6,005 items to determine how reasonable contract prices were. In addition, for
the analysis of material cost reductions, we selected 74 high-dollar components used on
6 repair programs and performed a price analysis to determine whether reduction of
material costs could be attributable to lower contract prices of new material.

Material Cost Reduction Analysis
We obtained and reviewed labor hours and material cost data for 70 repair programs from
officials at CCAD, Texas, and AMCOM, Redstone Arsenal, Alabama. We focused our
review on the top five repair programs with the highest calculated material savings and
one program that showed a total negative material cost for 2009 performance.
Specifically, we reviewed detailed material cost data from SDS and LMP for these six
repair programs from officials at CCAD, Texas and AMCOM, Redstone Arsenal,
Alabama. We also obtained and reviewed documentation of implemented improvements
for two of the six repair programs from Sikorsky. We verified the incentive payment to
Sikorsky for the material cost reduction clause by reviewing the invoice in wide area
work flow and the authorization for payment.

Use of Computer-Processed Data
We relied on computer-processed data from DoD, DLA, and commercial sources. We
used data from the Electronic Document Access System to identify previous procurement
quantities and prices of the sample items. We also obtained the procurement history for
the sample items from the Haystacks Gold System, a commercial system. We used the
Federal Logistics Information System to identify item descriptions, managing entity, and
obtain the standard unit prices to value existing inventory. We obtained data from the
DLA Office of Resource and Research Analysis to include inventory, demand,
requisitions, and pricing data. In addition, we used DoD EMALL to obtain stock on
hand, consumption data, and DLA standard unit prices. We determined that the
computer-processed data and procurement history data were reliable based on a
comparison with actual source documents. In addition, we used the Haystacks Gold
System for the past several audits and have not found any material errors or
discrepancies. We determined the reasonableness of inventory levels by comparing data
from AMCOM Integrated Materiel Management Center, Redstone Arsenal, Alabama,
and DLA. We did not find errors that would preclude the use of the computer-processed
data to meet the audit objectives or that would change the conclusions reached in this
report. In addition, we obtained material cost data from SDS and LMP from CCAD,
Texas, and AMCOM, Redstone Arsenal, Alabama. We found significant discrepancies
with the data used to determine material costs from LMP, as discussed in Finding B of
this report. Our calculations, conclusions, and the overall audit results were not affected
by this deficiency.

                             FOR OFFICIAL USE ONLY
                                       47
Appendix B. Prior Coverage
During the last 5 years, the GAO, the Department of Defense Inspector General
(DoD IG), and the Army Audit Agency, have issued ten reports discussing topics related
to the management of spare part inventories and DoD public-private partnership
agreements with private firms for depot maintenance. Unrestricted GAO reports can be
accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG reports can be
accessed at http://www.dodig.mil/audit/reports.

GAO
GAO Report No. GAO-11-139, “Additional Oversight and Reporting for the Army
Logistics Modernization Program Are Needed,” November 18, 2010

GAO Report No. GAO-10-469, “Defense Logistics Agency Needs to Expand on Efforts
to More Effectively Manage Spare Parts,” May 11, 2010

GAO Report No. GAO-10-461, “Actions Needed to Improve Implementation of the
Army Logistics Modernization Program,” April 30, 2010

GAO Report No. GAO-09-703, “DoD Needs to Update Savings Estimates and Continue
to Address Challenges in Consolidating Supply-Related Functions at Depot Maintenance
Locations,” July 9, 2009

GAO Report No. GAO-08-902R, “Depot Maintenance: DoD’s Report to Congress on Its
Public-Private Partnerships at Its Centers of Industrial and Technical Excellence (CITEs)
Is Not Complete and Additional Information Would Be Useful,” July 1, 2008

DoD IG
DoD IG Report No. D-2011-104, “Pricing and Escalation Issues Weaken the
Effectiveness of the Army Contract With Sikorsky to Support the Corpus Christi Army
Depot,” September 8, 2011

DoD IG Report No. D-2011-061, “Excess Inventory and Contracting Pricing Problems
Jeopardize the Army Contract With Boeing to Support the Corpus Christi Army Depot,”
May 3, 2011

DoD IG Report No. D-2010-067, “Public-Private Partnerships at Air Force Maintenance
Depots,” June 10, 2010

DoD IG Report No. D-2010-063, “Analysis of Air Force Secondary Power Logistics
Solution Contract,” May 21, 2010

Army Audit Agency
Army Audit Agency Report No. A-2008-0058-ALM, “Benefits of Public-Private
Partnerships,” February 7, 2008

                             FOR OFFICIAL USE ONLY
                                       48
Department of the Army Comments





                                      DEPARTMENT OF THE ARMY
                                HEADQUARTERS, U.S. ARf.K'f MATERIel COMMAND
                                              4400 MARTIN ROAD
                                      REDSTONE ARSENAL.. AI.. 35898-5000




      AMCIR
                                                                               SEP 26 2011

      'I ••••I~         FOR Department of Defense Inspector General (DoDIG), A1TN: • • • •
                     Room 300, 400 Army Navy Drive, Arlington, V A 22202-4704

      SUBJECT: Revised Command Reply to DoDIG Draft Report: Changes Are Needed to the Army
      Contract With Sikorsky to Use Existing ODD Inventory and Control Costs at the Corpus Christi
      Army Depot (project No. D2010-DOOOCH-0077.002) (DIOIO)


      1. The U.S. Anny Materiel Command has reviewed the subject report and endorses the enclosed
      comments, with revisions, provided by the U.S. Anny Contracting Command and the U.S. Anny
      Aviation and Missile Life Cycle Management Command.




                                 Click to add JPEG file
      Enel                                        ~(,"':G"':"'~-A--
                                                              thV
                                                       Executive Deputy to
                                                          Commanding General




                                            FOR OFFICIAL USE ONLY
                                                      49
                               DEPARTMENT OF THE ARMY
                        UNITED ST ATES ARMY AVIATION AND MISSiLe COMMAND
                                         5300 MARTIN ROAD
                                REDSTONE ARSENAL AL 35898-5000



AMSAM-IR                                                                     SEP 1 3 2011


MEMORANDUM THRU                                Acting Director, Internal Review and Audit
Compliance Office, US Anny Mateliel Command, 4400 Martin Road, Redstone Arsenal, AL
35898

FOR                          Department of Defense, Office of Inspector General, 400 Army
Navy Drive, ArlingtOn, VA 22202-4704

SUBJECT: OODlG Draft Report, Changes Are Needed to the Anny Contract With Sikorsky to
Use Existing DoD Inventory and Control Costs at the Corpus Christi Army Depot (project No.
0 20 I 0-0000CH-0077.002) (AMCM No. 01011) (AMCOM No. 2010LOO90)


I. Referenee Memorandum, HQAMC, undated, subject: Command Reply to OOOIG Draft
Changes Are Needed to the Army Contract with Sikorsky to Use Existing 0 00 Inventory and
Control Costs at the Corpus Christi Anny Depot (Project No. 02010-000CH-0077.002)
(DIOIO).                   Click to add JPEG file
2. Enclosed are revised comments to the subject draft report from the US Army Aviation and
Missile Life Cycle Management Command (AMCOM). The response was prepared by the
Army Contracting Command - Redstone Arsenal.




Encl                                        CHANDLER C. SHEI
                                            COL, AV
                                            Chief of Staff




                                      FOR OFFICIAL USE ONLY
                                                50
e
CCAM·BMP
                              DEPARTMENT OF THE ARMY
                        ARMY CONTRACTING COMMAND· REDSTONE
                                   8U1l~NG 6303 MARTlN ROAD
                             RE.DSTONE ARSENAL, ALABAMA 3!1ns.5000


                                                                             SEP 07 2011

MEMORANDUM FOR Internal Review and Audit Compliance Office, U.S. Army Aviation and
Missile Command (AMSAM-IR), Building 5302, Room 2147, Redstone Arsenal, Alabama
35898·5000

SUBJECT: Revised Comments ror DoDiG Draft Report, Changes Are Needed .he Army'0
Contract With Sikorsky to Use Existing DoD Inventory and Control Costs at Corpus Christi
Anny Depo' (Projec. No. 201()·DOOOCH·OO77.002)


1. Th. Anny Con'racting Conunand·RedSione has reviewed the subject draft report and
provides the enclosed revised response. This updates the comments provided to the DoDIG by
AMC on 29 Aug 2011.



                            Click to add JPEG file

                                                        af)L
Encl                                   '&~NS
                                        Principal ASsistant Responsible for Contracting




                                      FOR OFFICIAL USE ONLY
                                                51
                                 COMMAND COMMENTS
                                    DODIG Draft Report
                 Changes Are Needed to the Army Conll'llct With Sikorsky to
                      Use Emting DOD loventory and Control Costs
                             at the Corpus Christi Army Depot
                          (project No. D2010-DOOOCH-0077.002)
                       (AMC No. 01011 ) (AMCOM No. 2010L009D)


Revised Comments:

This submission reflects a revision of the previous comments furnished to the DoD IG office on
29 Aug 2011. This reflects changes in the data utilized for unit pricing comparison between
contract, Defense Logistics Agency (DLA) and Anny Master Dala File (AMOF) pricing. The
initial Anny response included calculations ofumt pricing that did not reflect adjustments for
unit of issue for some items. This impacted the savings calculated as follows:

A detailed price analysis was performed on the total contract extended value. comparing the
contract price to DLA and AMDF historical pricing. Based upon the detailed price analysis the
overall contract price reflected a significant decrease ofS36.3M or 24% from DLA historical
pricing for actual contract quantities sold to the depot for 2008 through 2010. However, when
the calculation was adjusted to incorporate the unit prices reflective of the correct unit of issue.
                              Click to add JPEG file
this reflected an acmal increase from DLA pricing ofS13.3M (4.93%) for 8Cmal quantities sold
from 2008 through Aug 2011 . The unit of issue is measured as either "each" or some type of
"bulle: quantity designation". In the initial pricing review, extraction ofhislOrical pricing from a
database, either DLA or AMDF, did not account for items which were priced in a 100 quantity
unit versus each. which inflated the calculated savings previously cited. Pricing had to be
converted for the unit of issue of a "hundred" down to an individual part price in order to
accurately compare to the contract prices. This step was not performed in the initial analysis.
Additionally. the contract pricing compared to the adjusted AMDF pricing continues to reflect a
decrease ofSIO.2M (3.5%) for 2008 through Aug 2011, even though it is less than the original
calculation ofS53.SM.

Adjusnnent oftbe total 2008 - 2012 initial price analysis to correct the unit of issue anomalies,
inclusive of actual quantities sold through Aug 20 II J reflects the following in contrast to the
original comments which indicated a significant price reduction from both DLA and Anny
Master Data File (AMDF) historical pricing 46% and 49% respectively. The adj usted value
finds that the overall contract price is 2.96% higher than the AMDF pricing and $11 .77% rugher
than the DLA pricing over five years should all the quantities estimated for the remainder of the
contract be purchased. However. this continues to validate the cost and qualitative criteria
reflected in the Business Case Analysis developed to support this contract as it was anticipated
that material could increase up to 25%. With the benefits gained from the partnership. the
material increases are considered an acceptable tradeoff for the cost of increased production and
readiness. There will always be individual items which reflect lower prices from DLA, based on
large volume buys. which are not available under the contract. This was anticipated in the



                                                   1




                                         FOR OFFICIAL USE ONLY
                                                   52
original acquisition strategy; however, the value of increased production and reduced repair
turnaround time was determined to be an acceptable trade offfcr this potential material increase.

The performance goals all improved as predicted. We stabilized and maintained readiness while
simultaneously upgrading capability and extending the usable life of the equipment. See
achievements below:

    •   Reduced repair twnaround time (RTAT) achieved - 33% reduction
    •   Reduction in backorders (70%) equating to an increase in reAdiness
    •   13,688 total components produced (275% increase since 2003)

In the Approved Business Case each oftbese outcomes were predicted.

Based upon this infonnation comments are revised for Sections B.1 , C.2 and C.3.

General Comments:

Reference IG comments in cover letter in which they indicate that DLA had sufficient inventory
to satisfy contract requirements for 3,267 parts where the contract price was S7.6M higher than
the DLA price. However, the DODIG also identified 1,990 parts in which the contract price was
$12.5M less than the DLA price. This fact indicates that for the items where DLA had inventory
in the 2010 tim_frame, procuring from the DLA would have potentially cost an extra S4.9M.
                             Click to add JPEG file
(See Comment to Recommendation C.2.)

Finding A. Eness DoD Inventory:

"AMCOM officials did not effectively use $205.9 million of 0 00 inventory before procwing the
same parts directly from Sikorsky under the CCAD/Sikorsky contract to support the Blackhawk
weapon systems. DoD inventory was not effectively used for the following reasons:

   •    AMCOM officials did not develop procedures to fully use existing DoD inventory
        before procuring the same items from Sikorsky. The Army, DLA, and Sikorsky
        all used different systems to manage inventory and requirements and no system
        provides total asset visibility or requirements information. AMCOM officials
        have a responsibility to match and reduce eCAD/Sikorsky contract requirements
        when existing DoD inventory is available.

   •    AMCOM officials tnmsferred inventory to DLA Aviation as part of a 2005 Base
        Realigmnent and Closure (BRAC) supply and storage recommendation. but did
        not transfer requirements for the items that are now being met by Sikorsky on the
        CCAD/Sikorsky contract.

As a result, we identified $47.5 million (87 items) to $58.7 million (113 items) of excess
DoD inventory that could be used to satisfy CCAD/Sikorsky contract requirements for
The Blackhawk helicopter ($28.8 million to $34.5 million over the next 2 contract years
with an additional S18.7 million to $24.2 million that could be used to satisfy future

                                                 2




                                        FOR OFFICIAL USE ONLY
                                                  53
contract requirements). Using the 000 EMALL. we identified an additional
$46.8 million (valued at the DLA standard unit price), or $230.7 million (valued at the
contract price) of DLA inventory, for 1,676 items that AMCOM could have used to meet
CCAD requirements rather than procuring these items from Sikorsky."

Recommendation A.1: "We recommend that the Commander, Anny Aviation and Missile Life
Cycle Command, and Director, Defense Logistics Agency Aviation, establish a team with
representatives from Corpus Christi Army Depot and Sikorsky to develop an acceptable
plan to use existing inventory to meet current and future Corpus Christi Army Depot
requirements. Additionally, an annual provisioning conference should be heLd to revisit
the excess inventory siruation until it is resolved."

Command Comments: Partially Concur. The IG identified S47.SM to SS8.7M of potential
excess DoD inventory that could be used to satisfy CCAD/Sikorsky contract requirements at
CCAD. A detailed review of inventory available to support this platform at Corpus Christi Army
Depot (CCAD) was performed by AMCOM Integrated Materiel Management Center. This
resulted in a total estimated value of AMCOM stock that is considered excess for these programs
to support CCAD of$24.7M versus the [G's estimate above. Specifics are depicted below:

AMCOM and CCAD are identifying excess Government Fwnished Material to be provided
under the contract to ensure that 000 inventory is used effectively. AMCOM officials have
looked at all excess inventory and all quantities that can be used currently have been reflected in
                             Click to add JPEG file
adjustments to the contract. This reflects the total AMCOM excess amount of$24.7M to date.
This is a continuous process and will be executed throughout the remainder of the contract
Currently. a Memorandum of Agreement (MOA) is in process of execution with all stakeholders,
AMCOMIDLAICCAD and Sikorsky. This process will evaluate the potential use of excess
material. This MOA will ensure that government inventory will be utilized as a first priority and
the contract wilL be modified to reflect usage of any applicable Government Fwnished Material.
Based on the fact that inventory management is at the government's discretion, the contractor
will be directed to utilize govenunent inventory. It is recognized that some negotiation of this
issue may occur based on the contractor's lay-in of materials for current contract requirements;
however, excess DoD inventory wiU be appropriately managed under this contract concept. The
drawdown of excess DLA inventory will be accomplished under this contract in accordance with
guidance issued by GEN Dunwoody, AMC Commander, "Order of Preference for Utilizing
Repair Parts Policy Memo, as well as the Principal Deputy Under Secretary of Defense for
Logistics and Material Readiness memorandwn, entitled ''Maximum Utilization of Government-
Owned Inventory in Perfonnance-Based Logistics Arrangements," dated December 20, 2010.
Additionally, the contract requires Sikorsky to utilize DLA as the preferred supplier for DLA
managed items that are detennined to be the best value to the Government in terms of price,
delivery and quality. As in the past, AMCOM has and will continue to utilize/draw down
"Excess" Inventories in a managed process prior to procuring additional material under the
Partnership contract as appropriate.

In Aug of200S the Aviation and Missile Command transferred items to Defense Logistics
Agency (DLA) in accordance with the Base Realignment and Closure Act of2ooS. Items were
transferred in accordance with the standard process using the U.S. Anny wholesale logistics

                                                 3




                                        FOR OFFICIAL USE ONLY
                                                  54
progrnms. More specifically, the Commodity Command Standard System was used by the
ArDly for this process. Transactions were generated which moved logistics data. to include
requirements, to the DLA. Prior to the transfer date, the AMCOM Inventory Managers provided
DLA paper copies of all available supply actions that occurred on the applicable items over the
last five years. in addition to that, the Blackhawk office provided printouts of demand data so
that the DLA Inventory Managers could load these into their system in the event that this data
did not post to their database. The demands for items to support the depot were appropriately
turned off in accordance with the DoD Manual 4140.26-M. Volume 2, which states that
consumable items that are unique to a weapon system, when the items have been included in a
performance-based life-cycle product support (PBL), can be retained by the Mililaly
Departments' contractor or agent Therefore, these depot items should not be inventory
purchased by DLA.

1n the specific instance cited in the report relative to DLA inventory available to meet contract
requirements for a retainer, NSN 3110-01-243-6588, this will be obtained from DLA inventory
for the remainder of the contract period. Depot demands for these items are very small as only
24 total have been purchased since 2008 for a total value of $74,408, compared to the total DLA
price of $16,503. The projected demand per year is 12 for the remainder of the contract period;
however. for 2011 a quantity of only 5 has been purchased to date.

Additionally, in reference to the !G's Table 5. Low-Dollar Parts Affect Calculation of DLA
Inventory Value at Contract Price on page 10 of the report, the statement that 20 10 annual
                             Click to add JPEG file
contract requirements for the parts listed range from 2 to 628 which are not representative of the
DLA on-hand inventories is accurate. Also, the 10 calculation appears to indicate that the Army
would pay $80,890,804 in excess ofDLA prices for these parts. To clarify, the contract
quantities purcbased through Aug 2011 for these items are very small (as stated by the IG table)
and calculation of the contract prices based on actual contract quantities yields a much smaller
extended value for the contract of $22.990. The DLA pricing for this quantity reflects a total
extended value of$4,562. In summary, the $81M calculation is not a correct indicator of what
we would pay for these items based on the depot demand and contract price. It is noted that
coordination with DLA indicates that their current stock on band is not considered "excess" by
DLA even though they have extensive amounts of stock available, as they have a steady bum
down rate for multiple customers with a steady average monthly demand applied to each item.

Recommendation A.2: "We recommend that the Commander, Army Aviation and Missile Life
Cycle Management Corrunand:

   a. UDetennine whether Sikorsky should manage the reduction of existing DoD inventory in
meeting Corpus Christi Army Depot requirements. If so, assign responsibility and make Sikorsky
accountable through contract tenns and metries"
Command Comments: PartiaUy-concur. Through the inventory reduction team concept
described in recommendation A. I, the applicable excess inventory will be reduced effectively.
Sikorsky wiU be an obvious stakeholder in this effort; however. they will not be the manager.
Sikorsky will be required to meet existing contract metrics while working within the government
framework developed to draw down existing excess inventory.


                                                4




                                        FOR OFFICIAL USE ONLY
                                                  55
  b. "Require that the Army Aviation and Missile Life Cycle Management
Command, lntegrated Materiel Management Center, not transfer items to Defense

Logistics Agency when future requirements for those items will be supported by
commercial sources."

Command Comments: Partially-coDcur. A response to a similar audit report (DoD IG Report
No. 0·2011-061 , issued 3 May 2011) was provided by the Office of the Assistant Secretary of
Defense, Principal Deputy. Logistics and Materiel Readiness, Mr. Alan Estevez. regarding this
issue. This response addresses this issue as follows: The transfer of items is governed by DOD
policy reflected in DOD Maoual4140.26·M, Volume 2, 'The DoD Integrated Materiel
Management (IMM) for Consumable Items: item Management Coding OMC) Criteria" that
addresses the transfer of conswnable items. Consumable items that are unique to a weapon
system, when the items have been included in a performance-based life-cycle product support
(PBL), can be retained by the Military Departments' contractor or agent Consumable items not
unique to a weapon system (common items) will be assigned to DLA or General Services
Administration for management.

Finding B. No Justification Cor Material Cost Reduction Clause Payment:

"AMCOM officials, as directed by AMC officials, added a material cost reduction clause
into the CCAD/Sikorsky contract, which was not effective in reducing CCAD repair
                             Click to add JPEG file
costs. The clause was designed for Sikorsky and CCAD to share savings associated with
reduced material usage for repair programs. However, the clause was not effective
because AMCOM officials:

   •   used unreliable data to calculate that material costs were reduced by $23.7 million from
       baseline to performance costs;

   •   failed to consider depot labor (hours) costs in its cost reduction methodology; and

   •   omitted repair programs that experienced material cost increases. as required by the
       clause. from its incentive calculation.

As a result, on January 25, 2011. AMCOM officials made an unjustified payment of
$1l .8 million for the 2009 performance period (half of the $23.7 million material cost
reduction calculation) based on perfonnance data that included incomplete transactions; negative
transactions, which showed material costs to repair items alless than zero; and lower material
prices procured from sources outside the CCAD/Sikorsky contract. The incentive calculation
also fai led to include repair programs with increased depot labor costs of$26.1 million and
repair programs with material cost increases of$15.1 million. We calculated that overal1 depot
costs increased by $29.3 million for the 70 repair programs covered under the contract."

Reeommendation B: "We recommend that the Executive Director, Army Contracting
Command - Redstone Arsenal, instruct the contracting officer to:


                                                5




                                       FOR OFFICIAL USE ONLY
                                                 56
   1. Obtain a refund of S11.8 million from Sikorsky for the material cost reduction
incentive,"

Command Comments: Partially Concur. The focus afthe material cost reduction clause was
to reduce material "cost" to the depot. During negotiation of the clause, the intention was to
include an incentive for material decreases and disincentive for material increases. It was
anticipated that Sikorsky would focus on decreases for all material with a contract incentive.
Additionally. the government detennined that it would be advantageous to recalculate the
Baseline each subsequent contract year based on the prior year Baseline Unit Material Cost or
the prior year Actual Material Costs. whichever Was lower. This baseline adjustment was
designed to take advantage of the previously achieved material cost reductions in order to ensure
that there was no redundancy calcuJated in the incentive baseline. Initially Sikorsky would not
agree to the year~to-year baseline adjustment. After months of negotiation, the government
concession to Sikorsky for utilizing the yeaHo-year baseline adjustment was not including a
disincentive for material cost increases. It should be noted that there was benefit to the
government gained from the yearly baseline adjustment of the material costs. A tota) of 8
programs reflected reductions orSt .2M in 2010. We agree with the 10's observation that some
programs reflected increases in material costs. Some of the potential reasons for increase are
significant environmental effects causing extreme degradation of partS or increase in OPTEMPO
to support the field. We are currently investigating these items to determine the reasons for these
increases. lfwe fmd areas that Sikorsky should or could have influenced for reductions, we will
take appropriate action. Under the cUrrent tenns of the contract, which include the baseline
                              Click to add JPEG file
adjustment each year and no consideration for program increases (as stated in the clause), the
contractor has earned an incentive ofSII.8M based on a review ofall the current data. We do
not CODCur with the IG' s conclusion that his calculation for increase in depot labor costs ofS29.3
million relative to the 70 repair programs should be related to this contract. There is no data that
corresponds to this contract causing an increase in depot standard labor hours. There is no
evidence that increased labor hour costs compared to standard labor hoW'S result from this
partnership contract.

An improvement initiative implcmented at the depot within the last six months has been to
develop fully trained contmcting officer representatives to monitor this contract. These CORs
have outstanding skill in understanding the depot requirements as well as the contract. This will
provide a more detailed level of oversight for the contract going forward in order to improve the
processes for the remainder of the contract.

Specific details relative to the negotiation and results of the material cost reduction clause are as
follows:

The baseline established for review of the results of material cost reduction was inclusive of all
material consumed during the maintenance process, whether that material was provided by
Sikorsky or was obtained from another source. During the establishment oftbe clause the
thought was that to limit the baseline to on1y Sikorsky provided material wou1d have led to an
unfair advantage to Sikorsky. This assumption was based on the volume of material required to
support CCAD production which is provided by other sources. Some of the reasons for this are
as follows: 1) some items were not included in the Sikorsky contract for various reasons and had

                                                  6




                                         FOR OFFICIAL USE ONLY
                                                   57
to be procured from other sources. 2) Sikorsky could not provide the required part on time and
another source had the stock available. 3) some parts were already available in the USGs stocks
and were consumed prior to obtaining them from Sikorsky. Therefore, the baseline was
developed to include all materials purchased during the fiscal year 08 in order to reflect the true
cost of material to the depot for UH·60 during that timeframe.

The DODIG finding notes that material cost increases were not included in the incentive
calculation. The 00010 concludes that Sikorsky had no disincentive for failing to control
material costs throughout the depot and could pick and choose which programs to control costs.
The clause did create an incentive for Sikorsky to control all costs. The 50% incentive is applied
equally to all component and airframe repair programs. A dollar earned in one program is equal
to a dollar earned in anotherj therefore, the contractor was incentivized to reduce costs across all
programs. Any prudent contractor would tty to control costs across the board to maximize the
potential for earning incentives.

It should be noted that throughout the negotiation period of the Material Cost Reduction (MCR)
clause. most versions based the calculation of the incentive on "50% of the Net Material Cost
Reduction from the Baseline". This included both increases and decreases in material costs.
The government determined that it would be advantageous to recalculate the Baseline each
subsequent contract year based on the prior year Baseline Unit Material Cost adjusted at the
contracted inflation factor of 4% 2r the prior year Actual Material Costs adjusted at the
contracted inflation factor of 4%. whichever was lower. This rebaselining process was designed
                              Click to add JPEG file
to take advantage of the previously achieved materiaJ cost reductions in order to ensure that there
was no redundancy calculated in the incentive baseline.

The option to measure each year's acrua! cost against predetermined baselines to be established
in the contract with no year-to-year adjustments was discussed at length; however, after
exploring various methodologies. Sikorsky accepted the government's preference to
recalculate/adjust the baseline each year. The consideration to Sikorsky in the agreement was
that for programs where actual costs exceeded baseline costs, these would not be included in
each year's incentive calculation. Evidence that adjusting the baseline each year has proven
beneficial to the govenunent position is reflected in a review of 26 programs completed in 20 I 0,
which revised the baseline. A total of eight programs reflected significant reductions in the
baseline, ranging from 34 to 78 percent for a total of St. 2M. Therefore, any potentiaJ incentive
would be reduced based upon this adjustment to the baseline. This indicates that the material
cost is being reduced on many programs.

The IG's conclude that any material cost reduction meao;;urement must be tied to the established
Depot Overhaul Factor's (DOF). This is defined as a facto r representing the quantity of a
specific stock number needed to overhaul one end item. DOFs are established based on an
estimated three year rolling average, and in a dynamic maintenance environment are subject to
change based on various factors. The types of on condition maintenance (OeM) required at the
depot do not support exact adherence to a DOF; trends relative to degrees of OCM required tend
to ebb and flow with both increases and decreases. Based upon this dynamic, even though
estimates of required material may be initially based upon the DOP's for specific components,
the actual consumption of material may vary based upon the actual OCM perfonned. The MeR
antiCipated that Sikorsky could suppon the DOF revision process based on identifYing
                                                 7




                                        FOR OFFICIAL USE ONLY
                                                  58
improvements to repair processes which in tum could serve to reduce DOF·s. The overall
concept is that with reduced DOF's there should be a corresponding reduction in material
required for OCM.

A review of the DOP changes for the items reflected in the MeR evaluation reflects decreases in
DOFs for higher value items outweighed increases from 2009 - 2010. A significant portion of
the DOF changes can be contributed to some of process improvements Sikorsky brought to the
depot under the contract. Some examples are 1) qualifYing CCAD for sbotpeening processes
which supported a critical safety item, shaft assembly; 2) incorporating a material protection
process which prevented handling damage and reduced scrap for numerous items; and 3)
reclaimed 48 pinioos though Storage Aualysis Failure Evaluation and Reclamation (SAFR). An
analysis of the DOF cbanges from 2009 -2010 reflects an overall reduction in total demand
quantity value due to DOF changes in 2010. This represents 0 total savings of S21.8M.

Calculation of the incentive was derived through due diligence of dedicated depot professionals.
Each program was manually reviewed very carefully to ensure that all available data was
considered in the evaluation of the incentive. 1b.is included manual processes and reviews to
eosore that legocy system and Logistics Modernization Prognun (LMP) data were included in the
process.

With the implementation ofLMP at CCAD, a large volume of material was identified in the
system, which bad previously been charged (through the financial system) to depot prognuns. A
                              Click to add JPEG file
decision was made that this material would be categorized as "'no value" within the current
system, in order to preclude double charging to programs. Even though the LMP system did not
include this material as a cost, the depot evaluation team. included this (with a value) in the
material cost reduction calculation. As a result, calculation of the material cost reduction
accurately reflected adjustments for this material.

For some programs. the IG's questioned the validity ofLMP data, i.e., it did not relate to the
DOF quantity and showed a negative quantity used in the calculation of the incentive. There are
scenarios that could have led to negative quantities reflected in the calculations. For example,
when component parts were UWrned in" as part of closing a program, this could have caused the
overall negative transactions. There could be several factors that contributed to the negative
material cost. As this was a Legacy program that migrated into LMP. negative cost can be
associated with inventory adjustments at completion of the program, material on the program
that was transferred into an unrestricted stock category. With implementation of LMP, stock
issues were highlighted, in that stocks on hand, which had not been visible in the previous
system, were identified. Some of these stocks were likely measured within the LMP model and
with the issue oftum·ins, some of the total programs reflected negative numbers. In that the
clause measured all material, this was pan of tbe measurement.

The 10 indicates that the clause should provide for equal consideration of labor increases. Depot
labor costs are developed based upon depot program managers evaluating historical performance
compared to current Repair Bill of Material (RBOM) estimates. He uses bis business judgment
to develop a discrete number to "bid" for that particular repair/overhaul. It is an "estimate" of
what the depot perceives it will cost. At completion of the program, the actual costs are

                                                  8




                                         FOR OFFICIAL USE ONLY
                                                   59
accumulated and tracked for each program in order to detennme the real cost to the depot for
both material and labor. The overall performance goals all improved as predicted. We stabilized
and maintained readiness while simultaneously upgrading capability and extending the usable
life of the equipment. See achievements below:

    •   Reduced repair tum around time (RTA1) achieved - 33% reduction
    •   Reduction in backorders (70010) equating to an increase in readiness
    •   13,688 total components produced (275% increase since 2003)

In the Approved Business Case each of these outcomes were predicted.

We do not find any data that directly relates depot labor hour increases to this contract. The IG's
conclusion that depot labor increases should be considered in calculation of this clause is not
realistic or applicable to this calculation. There are numerous potential reasons for labor
increases. Some of the reasons are as follows:

 1) Assets in worse condition than expected, requiring additional overhaul/repair processes. 2)
higher than anticipated scrap rates, 3) part not available for non-standard repair (parts were not
initially projected in planning for the repairs), 4) repair versus replace. 5) internal quality issues.
6) test stand issues, 7) equipment failures.

Repair versus replace decisions result from Sikorsky identifying repairs which were not
                               Click to add JPEG file
previously docwnented under depot technical documents. This can result in decreases in total
material consumption. even if there are some increases in labor hours. The government must
assess repair/replace decisions prior to implementation with the knowledge there is a potential
impact to increase depot labor. Evaluations are always on-going to detennine the most efficient
means of meeting production at the depot and in some instances, and conversely items which
previously were identified as repair (due to extreme wear over the course of time) have been
identified as most cost effective to replace.

The contractor does not have the ability to substantially influence the depot Jabor required for
maintenance. The depot provides the artisan workforce with no supplemental support from the
contractor. Even if labor increases with repair versus replace activities, the numerous other
potential impactors to labor which result from issues outside of the contractor's control and
therefore cannot be used as a valid measure to evaluate the contractor's value in reducing depot
costs. Based upon these issues, depot labor costs cannot be utilized to measure this
incentive/disincentive under the contract.

    2. "Immediately remove the material cost reduction clause from the contract unless
reliable data are used, which relate to depot overhaul factors, remove lower material
prices procured from sources outside the contract. and provide for equal consideration of
labor and material cost increases."

Command Comments: PartiaDy Concur. A suspension of the material cost reduction
incentive will be negotiated for the remaining FY 2011 and 2012 programs pending the results of
the investigation into the issue of increases in material costs for some programs. One of the
major factors which must be considered in this contract concept is the dynamic changes that

                                                   9




                                          FOR OFFICIAL USE ONLY
                                                    60
occur to impact the Depot's workload. These are a result of many factors, some of which are
Depot Overhaul Factor changes or major program changes. These changes result regularly in
fluctuations of quantities of parts required. If the contract is not flexible enough to allow for
these quantity changes, recognizing that this may not lead to lowest price solution by the partner,
it negates our ability to meet mission performance, impacting readiness and soldier support.
With this knowledge, the material cost reduction clause was incorporated to help control the
material costs under the contract. However, we agree with the IG's observation that some
programs reflected increases in material costs. We also agree that there was no contract
disincentive. which is the preferred method in performance based clauseg. Ifwe find areas that
Sikorsky should or could have influenced for reductions, we will request an appropriate refund.
However, as previously stated, tbe government did reap some benefits by means of recalculating
the baseline year to year.

Based upon the extensive processes employed by CCAD personnel in order to establish the
material baseline and evaluate performance on 70 programs, the results of the government
evaluation are viewed to be accurate based upon the available data.

Floding Co SpliHing Req uirements (or Consumable Items Was Not Cost-Effective:

"The CCAD/Sikorsky contract was splitting instead of consolidating procurement and
material sustainment responsibilities for consumable items purchased on the contract.
Consequently, Sikorsky and either the Anny or DLA were procuring and managing the
                               Click to add JPEG file
same items, and Sikorsky was procuring items from DLA and charging AMCOM higher
prices. Specifically, Sikorsky had responsibility for procuring and managing items used
at CCAD while either the Anny or DLA had responsibility for procuring and managing
the same items to meet requirements outside ofCCAD. This occurred because AMCOM
officials had not:

    •     developed an effective procurement and material management strategy that
          addressed the most cost-effective source of supply for consumable items, and

    • addressed an appropriate markup for Sikorsky on items procured from DLA.

Using the DoD EMALL, we identified that DLA had sufficient inventory to satisfy
annual CCADlSikorsky contract requirements for 3,267 items and that the total contract
price for these items was $7.6 mi1lion, or 85.1 percent, higher than the total DLA price.u
Although AMCOM officials were able to reduce contract prices for 29 items by $2 17,842
by procuring 2010 requirements from DLA inventory, we question the decision to pay a
fuji markup                                                             o Sikorsky on
these items. Further, from 2008 to 2010, Sikorsky made a 58.7 pen:ent profit, or
$930,760, on 449 items purehased from DLA, which were sold to CCAD at the contract
price."

Recommendations C: "We recommend that the Executive Director, Army Contracting
Command - Redstone Arsenal, instruct the contracting officer to:


                                                 10




                                         FOR OFFICIAL USE ONLY
                                                   61
  1. Require Sikorsky to obtain consumable items from the Defense Logistics
Agency as the first source of supply when cost-effective and practical."

Command Comments: Concur. Sikorsky executed a Memorandum of Agreement with
Defense Logistics Agency in 2009 to facilitate the purchase ofDLA material when cost effective
and practica1. This process has resulted in Sikorsky purchasing items which DLA identified as
having sufficient stock to cover the CCAD requirement for the items which were cost effective
and provided best value to the government. Sikorsky adjusted the contract price for these which
reflected an overall reduction in contract in 2010 of $646,000 and in 2011 a reduction of
$304,000.

The drawdown of excess DLA inventory wiU be accomplished under this contract in accordance
with guidance issued by GEN Dunwoody. AMC Commander, "Order of Preference for Utilizing
Repair Parts Policy Memo, as well as the Principal Deputy Under Secretary of Defense for
Logistics and Material Readiness memorandum~ entitled "Maximum Utilization of Government-
Owned Inventory in Performance-Based Logistics Arrangements," dated December 20, 2010.
However. as DLA policy does not currently suppon ''fencing'' parts in order to ensme
availability at point of need, Sikorsky could potentially be at risk in their contractual
responsibility to meet parts demands for the depot schedule should DLA not have required parts
available.

   2. "Request that Sikorsky provide a refund of $930,760 for excessive profits charged on
                              Click to add JPEG file
purchases from the Defense Logistics Agency."

Command Comments: Non-concur. The DoD IG identified some specific items which
reflected DLA inventory with lower prices than those established in the contract. Specifically,
nODIG found that DLA had sufficient inventory to satisfy contract requirements for 3,267 pans
where the contract price was $7.6M higher than the DLA price. The DODIG also identified
1,990 parts in which the contract price was $12.5M less than the DLA price. This fact indicates
that for the items whereDLA had inventory in the 2010 timeframe, procuring from the DLA
would have potentially cost an extra S4.9M.

The fact that inventory is identified in DLA stores, does not mean that the inventory is "excess"
and available for purchase. When other demands for DLA inventory exist, AMCOM does not
consider the inventory "excess'\ i.e., all demands must be included in the excess analysis and as
indicated in the IG comments, in many instances DLA did not have sufficient inventory to meet
the contract requirements. Demands for CCAD were appropriately removed from this contract;
therefore, only an agreement between Sikorsky and DLA would suppon DLA providing parts to
meet those demands.

As stated in C.I. above, Sikorsky has worked within the contract to develop agreements to
purchase from DLA and has adjusted the contract price when DLA prices are lower than
contract. These items are identified and adjusted on an annual basis. However. unless Sikorsky
purchases the entire DLA inventory at the beginning of the period, DLA will not guarantee
inventory availability for any of the parts. Also, DLA pricing is subject to change without notice
and is only valid for the period of time when an order is placed. Additionally, this reflects a cost

                                                 11




                                         FOR OFFICIAL USE ONLY
                                                   62
of holding inventory for Sikorsky. Since DLA inventory changes frequently, there would be no
way to determine with any degree of accuracy the required quantities of contractor furnished
matcria1, particularly in the subsequent program years. Without firm or estimated quantity
information, it is not reasonable to expect a contractor to negotiate prices with its suppliers that
will provide best value to the Government and also ensure that the contractor will have his
supply chain in place to meet the depot requirements when needed.

 The fact that Sikorsky applies their          markup does Dot equate to "excessive" profits. An
overall view of the contmct and the effort and risk to the contractor must also be considered.
The contract clause states that "Sikorsky is solely responsible for dealing directly with DLA to
insure quality and timely delivery of the parts ordered." Sikorsky's supply chain is qualified by
Sikorsky to ensure all quality requirements are met. The items available from DLA often are not
supplied by these qualified vendors and Sikorsky does not have a means to validate the quality
for these parts. Should a quality issue arise with these parts, Sikorsky is solely responsible for
resolution/restitution as required. Additionally. should the depot not have a finn requirement for
the DLA purchased parts, Sikorsky cannot sell to other customers or utilize these in the
production line, as they are not guaranteed to be procured from a Sikorsky qualified vendor.
Additionally. the contract clause does not relieve Sikorsky from meeting all contract metrics,
when using DLA as a source. Delays in delivery or failure to meet quality requirement shall Dot
be deemed Govenunent caused and shall not relieve Sikorsky of meeting all contractual
requirement. This adds additional risk to Sikorsky when utilizing DLA as a source should DLA
                              Click to add JPEG file
not have adequate inventory to meet the contract requirements. Sikorsky is required to maintain a
supply chain with the ability to support the depot requirements. Reliance upon sources of supply
that cannot commit to inventory availability beyond what is currently available puts the
contractor at high risk for not meeting contract delivery requirements. Many of the contract
items are subject to long lead times. In some cases, parts have lead times that exceed two years.
In the event that expected DLA inventory becomes unavailable to meet production demand,
production stoppages could extend for lengthy periods while the long lead items are being
procured. The partnership has shown that relying primarily on the contractor's material supply
base has improved material availability over the life of the partnership program and enabled
CCAD to dramatically increase its production. There will always be individual items which
reflect lower prices from DLA. based on large volume buys, which are not available under the
contract. 1bis was anticipated in the original acquisition strategy; however, the value of
increased production and reduced repair turnaround time was detennined to be the trade off for
this potential material increase.

   3. "Determine an appropriate markup and modify contract clauses related to
purchases from the Defense Logistics Agency to prevent Sikorsky from making
excessive profits."

Command Comments: Partially Concu r. A backward look indicates that there was no
guarantee that Sikorsky could obtain DLA items without utilizing the full contingent of their
business management process in that they were required to review DLA parts availability,
compare delivery schedu1es with their supply chain and determine the best value on a part by
part basis. This also required executing and managing the procurement, packaging,
receiving/inspecting the items, creating stocking locations, warehousing and maintaining

                                                  12




                                         FOR OFFICIAL USE ONLY
                                                   63
inventory. 1b.is effort expended is associated with bmden and profit rates. These functions
support a mark-up commensurate with all their other vendors.

The contract clause states that "Parts and supplies acquired from DLA are considered contractor
acquired property rather than Government furnished property. Using DLA as a source will not
relieve Sikorsky of meeting all contract metrics. Sikorsky is solely resJXlnsible for dealing
directly with DLA to insure quality and timely delivery of the parts ordered. Delays in delivery
or failure to meet quality requirement shall not be deemed Government caused and shall not
relieve Sikorsky of meeting aU contractual requirements." The intent of the clause is to treat all
DLA furnished material as COntractor furnished. No relief is granted to the contractor for quality
and delivery issues as a result of using DLA as a source of supply.

Although buying material from DLA does not require Sikorsky to negotiate prices with
suppliers, the DLA price is subject to change without notice, based upon the availability in their
system. This change can occur anytime after the contract unit prices are adjusted based on DLA
pricing. Once the contract prices are adjusted, the contractor is committed to using DLA or risk
additional financial exposure. In order to meet delivery schedules, inventory ofDLA furnished
items must be maintained by purchasing items ahead of need (tying-up fuoding) in the same
manner as other commercial sources. Sikorsky manages DLA deliveries the same way as
commercial source deliveries. Sikorsky perfonns various functions when procuring DLA
inventory. Sikorsky must detennine demand requirements, review DLA availability, execute the
                              Click to add JPEG file
procurement process through DoD EMALL, perform packaging, receive/inspect, create stocking
location, warehouse ,and maintain appropriate inventory. Therefore, the services performed to
procure from the DLA are very similar if not the same as procuring material from their
commercial supply chain.

Additionally. in accordance with Sikorsky's Cost Accounting Standards Disclosure statement,

                                                                The 000 IO states that Sikorsky
showd not ful ly burden the DLA cost; however. this would reswt in an inconsistent application
of these rates and cause Sikorsky to be noncompliant with their Disclosure statement. The
Sikorsky accounting process treats DLA as any other supplier which reflects application of their
disclosed rates and factors.

Based on the foregoing, application of a Sikorsky negotiated supplier burden to the DLA pricing
is consistent with Sikorsky' s Cost Accounting Disclosure Statement an overall price analysis
reflects that the total contract price is fair and reasonable in comparison to overaU DLA pricing.

In the follow-on contract, if DLA and Sikorsky can negotiate an agreement that specific material
can be fully supported by DLA, a reduced markup will be negotiated. However. we will have to
work with nCAA to ensure there are no violations of Sikorsky's Cost ACCOWlting Disclosure
Statement. IfDLA support can only be provided on an ad hoc basis and DLA cannot guarantee
delivery in order to meet Sikorsky' s need, then Sikorsky will be required to perfonn all the
functions that are currently required for their vendors. They must research availability, execute
the procurement, package, receive, inspect the items, create stocking locations, and warehouse
and maintain inventory. These functions support a mark-up commensurate with all their other


                                                13




                                        FOR OFFICIAL USE ONLY
                                                  64
vendors. This issue will continue to be reviewed during the course of the contract in order to
ensure that Sikorsky overall prices are not excessive when utilizing DLA as a source of supply
under the contract.




                             Click to add JPEG file




                                                14




                                        FOR OFFICIAL USE ONLY
                                                  65
Defense Logistics Agency Comments




                  Click to add JPEG file




                       FOR OFFICIAL USE ONLY
                                 66
Click to add JPEG file




     FOR OFFICIAL USE ONLY
               67
Click to add JPEG file




     FOR OFFICIAL USE ONLY
               68
